<html>
<title> - LOSING GROUND: U.S. COMPETITIVENESS IN CRITICAL TECHNOLOGIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                             LOSING GROUND:
                        U.S. COMPETITIVENESS IN
                         CRITICAL TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 29, 2020

                               __________

                           Serial No. 116-64

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-555PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------      
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                VACANCY
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
VACANCY
                         
                         C  O  N  T  E  N  T  S

                            January 29, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written statement............................................     8

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written statement............................................    10

                               Witnesses:

Dr. Diane Souvaine, Chair, National Science Board
    Oral Statement...............................................    12
    Written Statement............................................    14

Dr. Eric Schmidt, Founder, Schmidt Futures; Chairman, Defense 
  Innovation Board; Chairman, National Security Commission on 
  Artificial Intelligence
    Oral Statement...............................................    23
    Written Statement............................................    25

Dr. Chaouki Abdallah, Executive Vice President for Research, 
  Georgia Institute of Technology
    Oral Statement...............................................    32
    Written Statement............................................    34

Discussion.......................................................    41

             Appendix I: Answers to Post-Hearing Questions

Dr. Diane Souvaine, Chair, National Science Board................    72

Dr. Eric Schmidt, Founder, Schmidt Futures; Chairman, Defense 
  Innovation Board; Chairman, National Security Commission on 
  Artificial Intelligence........................................    73

Dr. Chaouki Abdallah, Executive Vice President for Research, 
  Georgia Institute of Technology................................    75

            Appendix II: Additional Material for the Record

Article submitted by Representative Sean Casten, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    78

 
                             LOSING GROUND:
                        U.S. COMPETITIVENESS IN
                         CRITICAL TECHNOLOGIES

                              ----------                              


                      WEDNESDAY, JANUARY 29, 2020

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. The hearing will come to order. Without 
objection, the Chair is authorized to declare a recess at any 
time.
    Good morning to all. This hearing on United States 
competitiveness in critical technologies is our topic. And 
welcome to our distinguished panel of witnesses.
    United States leadership in science and technology has long 
given U.S. companies a competitive advantage, which in turn has 
led to job creation and increased standards of living for all 
Americans. It has also bolstered our national defense.
    However, as recent reports have underscored, the United 
States has already begun to face the consequences of our 
inability to make strategic and sustained long-term investments 
in our science and technology enterprise. For too long, we have 
coasted on the vision and political will that our leaders had 
in the 1950s, when they enacted the National Defense Education 
Act, and other seminal laws that invested in our Nation's 
talent and built the foundations for U.S. leadership in science 
and technology.
    We have risen to the challenge a few times since then, for 
example, the doubling of the NIH (National Institutes of 
Health) budget and the initiatives in the America COMPETES Act, 
including the creation of ARPA-E (Advanced Research Projects 
Agency-Energy). However, in the last 15 years, the non-defense 
research and development (R&D) budget has stagnated. We have 
been lamenting our domestic STEM (science, technology, 
engineering, and mathematics) pipeline challenge for decades, 
yet we have not made much progress.
    In the meantime, other countries have implemented 
strategies and invested significantly in their science and 
technology capacity. As a result, they are now retaining and 
attracting talent that once came to the United States to study, 
conduct research, and build companies here. Those are just a 
few of the indicators that should serve as a warning to all of 
us that we are losing ground.
    The economic and national security risk of loss of 
leadership are particularly high in some science and technology 
fields. If we do not lead, we will be poorly positioned to help 
set global norms and standards for the responsible development 
and application of emerging technologies such as artificial 
intelligence (AI) and biotechnology. Even when our best efforts 
to set norms are not enough, science and technology (S&T) 
leadership will enable us to develop strong defensive 
capabilities to protect the American people against those who 
wish us harm.
    I do not want to cause any confusion about where I stand. I 
remain as firmly committed as ever to our investments across 
all fields of science and engineering, as well as the 
humanities. Those who study ethics and philosophy and other 
aspects of human society will be needed alongside those who 
study bytes and microbes. Without this scholarly partnership, 
the United States will not have the tools to lead responsibly 
at home or abroad.
    The other partnership that remains essential is that 
between the public and private sectors. The private sector has 
been increasing its investments in research and development 
even as the public sector has fallen back. However, the 
objectives and the constraints are very different for each 
sector. Joined together in effective partnership, on the other 
hand, the two sectors can leverage each other's strengths and 
resources to advance shared goals.
    Our Nation has accomplished great things when we have put 
our minds to it. We sent a man to the moon, invented GPS and 
the internet, and developed the entire field of synthetic 
biology. We have what it takes to lead. The question is, will 
we do what it takes?
    As we embark on another busy year in this Committee, I look 
forward to today's testimony and discussion that will help us 
frame both the challenges and opportunities ahead for American 
leadership in science and technology.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning and welcome to this hearing on United States 
Competitiveness in Critical Technologies. And welcome to our 
distinguished panel of witnesses.
    United States leadership in science and technology has long 
given U.S. companies a competitive advantage, which in turn has 
led to job creation and an increased standard of living for all 
Americans. It has also bolstered our national defense. However, 
as recent reports have underscored, the United States has 
already begun to face the consequences of our inability to make 
strategic and sustained long-term investments in our science 
and technology enterprise. For too long we have coasted on the 
vision and political will that our leaders had in the 1950s, 
when they enacted the National Defense Education Act and other 
seminal laws that invested in our nation's talent and built the 
foundations for U.S. leadership in science and technology.
    We have risen to the challenge a few times since then, for 
example in the doubling of the NIH budget and the initiatives 
in the America COMPETES Act, including the creation of ARPA-E. 
However, in the last 15 years, the nondefense research and 
development budget has stagnated. We have been lamenting our 
domestic STEM pipeline challenge for decades, yet we have not 
made much progress. In the meantime, other countries have 
implemented strategies and invested significantly in their 
science and technology capacity. As a result, they are now 
retaining and attracting talent that once came to the United 
States to study, conduct research, and build companies here. 
Those are just a few of the indicators that should serve as a 
warning to all of us that we are losing ground.
    The economic and national security risks of loss of 
leadership are particularly high in some science and technology 
fields. If we do not lead, we will be poorly positioned to help 
set global norms and standards for the responsible development 
and application of emerging technologies such as artificial 
intelligence and biotechnology. Even when our best efforts to 
set norms are not enough, science and technology leadership 
will enable us to develop strong defensive capabilities to 
protect the American people against those who wish us harm.
    I do not want to cause any confusion about where I stand. I 
remain as firmly committed as ever to our investments across 
all fields of science and engineering as well as the 
humanities. Those who study ethics and philosophy and other 
aspects of human society will be needed alongside those who 
study bytes and microbes. Without this scholarly partnership, 
the United States will not have the tools to lead responsibly 
at home or abroad.
    The other partnership that remains essential is that 
between the public and private sectors. The private sector has 
been increasing its investments in research and development 
even as the public sector has fallen back. However, the 
objectives and the constraints are very different for each 
sector. Joined together in effective partnership, on the other 
hand, the two sectors can leverage each other's strengths and 
resources to advance shared goals.
    Our nation has accomplished great things when we have put 
our minds to it. We sent a man to the moon, invented GPS and 
the internet, and developed the entire field of synthetic 
biology. We have what it takes to lead. The question is, will 
we do what it takes?
    As we embark on another busy year in this Committee, I look 
forward to today's testimony and discussion that will help us 
frame both the challenges and opportunities ahead for American 
leadership in science and technology.

    Chairwoman Johnson. I now recognize Mr. Lucas, our Ranking 
Member, for his opening statement.
    Mr. Lucas. Thank you, Chairwoman Johnson, for holding this 
important hearing on U.S. competitiveness in critical 
technologies.
    American superiority in science and technology is 
fundamental to our economic competitiveness, our national 
security, and our way of life. But the U.S. is facing two 
fundamental challenges to our competitiveness and growth as a 
Nation. First, foreign countries, especially China, are 
threatening to outpace us in scientific research and 
development. Second, we must respond to the changing climate 
and develop next-generation technologies to understand it, 
address it, and mitigate it.
    To meet these two generational challenges, we must 
accelerate our investments in basic research, as well as invest 
in the tools and infrastructure needed to support that 
research. That's why yesterday I introduced the Securing 
American Leadership in Science and Technology Act. I'm proud to 
be joined by many of my Republican colleagues on the Science 
Committee on this bill, which creates a long-term strategy for 
growing our Nation's investment in basic research and research 
infrastructure, while cutting red tape to improve taxpayers' 
returns on investment.
    The bill directs the development of a National Science and 
Technology Strategy for the United States and a quadrennial 
review process. This will provide a more strategic, whole-of-
government effort for setting national priorities and improving 
coordination between Federal agencies.
    The bill prioritizes investment in Federal basic research. 
It authorizes a doubling of basic research funding over the 
next 10 years at the Department of Energy (DOE), the National 
Science Foundation (NSF), the National Institute of Standards 
and Technology (NIST), and the National Oceanic and Atmospheric 
Administration (NOAA).
    The bill also prioritizes research infrastructure, from 
light sources to supercomputers. If we want to do big things 
and compete for the best scientists and companies in the world 
to work here in the U.S., we need world-class facilities.
    The bill promotes the development of an American STEM-
capable workforce. To support the industries of the future, we 
need workers with STEM skills at all levels, from the skilled 
technical workforce to the Ph.D.-level scientists.
    Finally, the bill includes regulatory reform to improve the 
effectiveness of taxpayer investments in R&D. The bill updates 
technology transfer laws to get research out of the lab and 
into the private industry for development, and makes it easier 
for private industry to collaborate with the Federal Government 
on research.
    I recognize that we are the minority party and that we do 
not get to set the agenda. But I believe we have many shared 
priorities. I believe this legislative package will start a 
bipartisan conversation about what we need to do to ensure 
America's lead in the technological revolution of the 21st 
Century.
    China has made it an explicit goal to surpass the U.S. in 
critical technologies. Their ``Made in China 2025'' initiative 
is a bold plan, which outlines their intent to become global 
leaders in areas like quantum information science, advanced 
robotics, aerospace, and biotechnology. China is making real 
investments in R&D, increasing government-funded R&D by 56 
percent between 2011 and 2016.
    At the same time, U.S. investment in basic civilian 
research has stagnated, falling by 12 percent in absolute 
terms. As we will hear today, there are indications that China 
may have already surpassed the U.S. in total research 
investment this year. China is also pushing a strategy of 
promoting foreign acquisitions, forced technology transfer 
agreements, and, in many cases, commercial cyber-espionage to 
gain cutting-edge technologies and know-how.
    We must protect our Nation's research and intellectual 
property. The Trump Administration has taken good steps toward 
protecting American IP (intellectual property) from Chinese 
aggression. But we must do more to protect sensitive American 
research, while maintaining the spirit of open science that has 
fueled generations of discoveries.
    As any good football coach will tell you, the best defense 
is a good offense. American industry is the driver of 
investment in R&D spending in this country, accounting for 70 
percent of U.S. R&D. But those investments are fueled by the 
ideas that come out of government-funded basic research, the 
type of research that industry doesn't undertake because it's 
too risky and it's too early-stage. Since World War II, the 
successful partnership between government, academia and 
industry, has made our research enterprise the envy of the 
world. It's time to renew that enterprise.
    Americans are pioneers, and this spirit has always driven 
our support for science. But I believe we need to collectively 
do a better job of providing a vision for why science matters 
to all Americans. I look forward to hearing from our 
distinguished panel of witnesses about how we can work together 
to meet this challenge and ensure America continues to lead in 
science and technology.
    And with that, I yield back, Madam Chair.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson for holding this important 
hearing on U.S. Competitiveness in Critical Technologies.
    American superiority in science and technology is 
foundational to our economic competitiveness, our national 
security, and our way of life. But the U.S. is facing two 
fundamental challenges to our competitiveness and growth as a 
nation.
    First, foreign countries, especially China, are threatening 
to outpace us in scientific research and development. Second, 
we must respond to a changing climate and develop next-
generation technologies to understand it, address it, and 
mitigate it.
    To meet these two generational challenges, we must 
accelerate our investments in basic research, as well as invest 
in the tools and infrastructure needed to support that 
research. That's why yesterday I introduced the Securing 
American Leadership in Science and Technology Act.
    I'm proud to be joined by many of my Republican colleagues 
on the Science Committee on this bill, which creates a long-
term strategy for growing our nation's investment in basic 
research and research infrastructure, while cutting red tape to 
improve the taxpayers' return on investment. The bill directs 
the development of a National Science and Technology Strategy 
for the United States and a quadrennial review process. This 
will provide a more strategic, whole-of government effort, for 
setting national priorities and improving coordination between 
federal agencies.
    The bill prioritizes investment in federal basic research. 
It authorizes a doubling of basic research funding over the 
next 10 years at the Department of Energy, the National Science 
Foundation, the National Institute of Standards and Technology, 
and the National Oceanic and Atmospheric Administration. The 
bill also prioritizes research infrastructure. From light 
sources, to supercomputers--if we want to do big things and 
compete for the best scientists and companies in the world to 
work here in the U.S., we need world-class facilities.
    The bill promotes the development of an American STEM-
capable workforce. To support the industries of the future, we 
need workers with STEM skills at all levels--from the skilled 
technical workforce to Ph.D. level scientists.
    Finally, the bill includes regulatory reform to improve the 
effectiveness of taxpayer investments in R&D. The bill updates 
technology transfer laws to get research out of the lab and 
into private industry for development, and makes it easier for 
private industry to collaborate with the federal government on 
research.
    I recognize that we are the minority party and that we do 
not get to set the agenda. But I believe we have many shared 
priorities and I hope this legislative package will start a 
bipartisan conversation about what we need to do to ensure 
America lead's the technological revolution of the 21st 
Century.
    China has made it an explicit goal to surpass the U.S. in 
critical technologies. Their ``Made in China 2025'' initiative 
is a bold plan, which outlines their intent to become the 
global leader in areas like quantum information science, 
advanced robotics, aerospace and biotechnology. China is making 
real investments in R&D-increasing government-funded R&D by 56 
percent between 2011 and 2016. At the same time, U.S. 
investment in basic civilian research has stagnated, falling by 
12 percent in absolute terms. As we will hear today, there are 
indications that China may have already surpassed the U.S. 
total research investment this year. China is also pushing a 
strategy of promoting foreign acquisitions, forced technology 
transfer agreements, and, in many cases, commercial cyber-
espionage to gain cutting-edge technologies and know-how.
    We must protect our nation's research and intellectual 
property. The Trump Administration has taken good steps towards 
protecting American IP from Chinese aggression. But we must do 
more to protect sensitive American research, while maintaining 
the spirit of open science that has fueled generations of 
discoveries. As any good football coach will tell you, the best 
defense is a good offense.
    American industry is the driver of investment in R&D 
spending in our country, accounting for 70% of U.S. R&D. But 
those investments are fueled by the ideas that come out of 
government-funded basic research, the type of research that 
industry doesn't undertake because it's too risky and too 
early-stage. Since World War II, the successful partnership 
between government, academia and industry, has made our 
research enterprise the envy of the world. It's time to renew 
that enterprise.
    Americans are pioneers and this spirit has always driven 
our support for science. But I believe we need to collectively 
do a better job of providing a vision for why science matters 
to all Americans. I look forward to hearing from our 
distinguished panel of witnesses about how we can work together 
to meet this challenge and ensure America continues to lead in 
science and technology.

    Chairwoman Johnson. Thank you, Mr. Lucas.
    At this time I'd like to introduce our witnesses. Our first 
witness is Dr. Diane Souvaine. Dr. Souvaine is currently 
serving as Chair of the National Science Board (NSB), a 
position she has held since 2018. From 2016 to 2018 she served 
as Vice Chair. She was first appointed to the Board in 2008 and 
reappointed in 2014. She's also a Professor of computer science 
and Adjunct Professor of mathematics at Tufts University, where 
she has been a member of the faculty since 1998. During her 
tenure at Tufts, she has served in several leadership 
positions, including Vice Provost for Research, Senior Advisor 
to the Provost, and Chair of the Department of Computer 
Science.
    Our next witness is Dr. Eric Schmidt. Dr. Schmidt is the 
founder of Schmidt Futures and also Technical Advisor to 
Alphabet Inc., where he advises leaders on technology, 
business, and policy issues. Previously, he was Executive 
Chairman of Alphabet from 2015 to 2018 and of Google from 2011 
to 2015, where he also served as CEO from 2001 to 2011. Dr. 
Schmidt became Chairman of the Department of Defense's (DOD's) 
Innovation Board in 2016 and was awarded the Department of 
Defense Medal for Distinguished Public Service in 2017. He is 
also Chairman of the U.S. National Security Commission on 
Artificial Intelligence and was a member of the President's 
Council of Advisors on Science from 2009 to 2017.
    Our third witness is Dr. Chaouki Abdallah. Dr. Abdallah is 
Executive Vice President for Research at the Georgia Institute 
of Technology, that is Georgia Tech, a position he has held 
since 2018. In this position he provides overall leadership for 
the research, economic development, and related support units 
within Georgia Tech and serves on the President's Executive 
Leadership Team. Dr. Abdallah also serves on the Executive 
Committee for the Association of Public and Land Grant 
Universities and the Government-University-Industry Research 
Roundtable. Prior to his position at Georgia Tech, he spent his 
career at the University of New Mexico, including as Chair of 
the Electrical and Computer Engineering Department, Provost, 
and then briefly as President from January 2017 to February 
2018.
    As our witnesses should know, each of you will have 5 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When all of you have 
completed your spoken testimony, we will begin questions with 
each member having 5 minutes to question the panel. And so we 
will start now with our first witness Dr. Souvaine.

                TESTIMONY OF DR. DIANE SOUVAINE,

                  CHAIR, NATIONAL SCIENCE BOARD

    Dr. Souvaine. Thank you. Chairwoman Johnson, Ranking Member 
Lucas, and Members of the Committee, thank you for the 
opportunity to speak with you today as Chair of the National 
Science Board.
    For 70 years, science and engineering have driven our 
economic growth, underpinned our national security, and 
transformed nearly every aspect of our lives. This was no 
accident. Congress' sustained bipartisan commitment to basic 
research has played a key role in creating a knowledge 
ecosystem in which academia, government, and the private sector 
partner to drive innovation.
    Science and Engineering Indicators 2020, which the Board 
released 2 weeks ago, shows that S&E (science and engineering) 
is now truly a worldwide enterprise, connected, complex, and 
interdependent with more players and opportunities and 
humanity's collective knowledge growing exponentially. While 
science is the endless frontier, we're not the only explorers. 
Staying at the forefront of S&E is essential for our economy 
and our security. As other countries have invested in their own 
research enterprises, our share of global discovery and 
innovation has declined and will likely continue to decline. We 
are no longer the uncontested leader in S&E, and we must adapt 
to changes in the world and in our country.
    In my written testimony I described the growth of S&E 
investments around the world and the accompanying increase in 
international competition and collaboration. I also talk about 
the importance of foreign talent and the urgent need to build 
and diversify our domestic STEM workforce. I also suggest that 
we must recognize that the private sector now funds more 
fundamental R&D than the Federal Government does, and it is key 
to our S&E ecosystem's response to rising competition.
    In thinking about our strategy, I would highlight two 
areas. First, we need to compete with both intangibles and 
money. In recent years, both the private sector and Congress 
have responded to our peers worldwide with increased 
investment, including NSF. And for our part we're grateful to 
Congress for their wisdom. Only the Federal Government can make 
strategic long-term commitments to creating the new knowledge 
that is the seed corn for the entire U.S. S&E enterprise.
    Despite these increases, the Board believes that China has 
already surpassed us in R&D investments. And relatively slow 
increases in public investment has a cost. Between 2000 and 
2017, while global R&D investments tripled, NSF's funding rate 
fell from 33 percent to 21 percent, leaving billions in 
outstanding merit-reviewed ideas unfunded.
    AI and quantum computing are now critical technologies in 
part because NSF supported early-stage research years ago. As 
NSF looks to the next big thing, are we already leaving another 
Google, LIGO (Laser Interferometer Gravitational-Wave 
Observatory), or Kevlar on the cutting room floor? As you 
consider legislation, I encourage you to ask, what do our 
agencies need to accomplish their missions, and what does our 
country need to retain preeminence in S&E?
    Second, to produce results, R&D investments must be coupled 
with a highly skilled STEM-capable workforce from skilled 
technical workers to PhDs. We must move aggressively to grow 
and diversify our domestic STEM workforce. At the same time we 
must acknowledge our near-term reliance on foreign-born talent. 
This dependence is particularly acute in computer science, 
math, and engineering--fields that are vital to many critical 
technologies.
    Amid a new global bidding war for S&E talent, we must 
welcome international students and workers. We need to also 
make our S&E enterprise a magnet for curious creative Americans 
from all backgrounds and from every State who want to explore, 
solve problems, and make the world a better place. We must 
build a more inclusive S&E ecosystem, upgrade K-12 STEM 
education, and ensure robust pathways into S&E jobs. We must 
remember that education is a public good and that public 
universities and colleges have a special role to play in 
bringing the innovation economy to every State. Our message 
must be unified and clear: STEM is for all Americans. Just as 
illiteracy cannot be considered a virtue, it can no longer be 
socially acceptable to be bad at math.
    To conclude, this is our ask: Be fearless. Let's not merely 
react to anxieties from global competition, concern about 
security threats, or angst about constrained budgets. Instead, 
let's act now before lagging indicators show that it's too 
late.
    Let's recommit to the partnerships among government, 
universities, and the private sector that have driven our 
success, embracing the obligation to turn our Nation's lead in 
basic research into innovations.
    Let's embrace America's identity as the land of opportunity 
and remember the can-do attitude that defines our people.
    Let's unleash the strength of our values: A spirit of 
exploration, of wonder, of discovery, coupled with a 
willingness to take risks and an emphasis on freedom and 
individual creativity to ensure America's continued preeminence 
in research and innovation in the 21st century. Because the 
best way to lead the future is to invent it.
    I thank you for your time and look forward to your 
questions.
    [The prepared statement of Dr. Souvaine follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. Dr. Schmidt.

                 TESTIMONY OF DR. ERIC SCHMIDT,

                    FOUNDER, SCHMIDT FUTURES

    Dr. Schmidt. Thank you very much. I completely agree with 
Dr. Souvaine and also to your two initial statements, 
Chairwoman Johnson, Ranking Member Lucas, and thank you for 
letting me be here.
    When I was a graduate student, I was funded by National 
Science funding as well as DARPA funding. Without that funding, 
I would not have been able to do the kind of research that at 
the time allowed my career to become what it is today.
    During that time, I was CEO of Google and I'm now the 
Chairman of two essentially national security or DOD 
commissions. Larry and Sergey, when they worked at Stanford, 
were funded by National Science Foundation grants. There were 
plenty of examples where government initial basic research 
funding in key areas that were thought to be promising created 
enormous wealth for our Nation and made it globally 
competitive. I can give you example after example, as you 
pointed out.
    My message today is one of urgency. Business as usual seems 
awfully pleasant and fine, but it's not going to deal with the 
challenges that we face from a standpoint of global leadership 
and national security. As an example, China is clearly and 
aggressively trying to close the lead that we have between them 
and emerging technologies. In a most recent public announcement 
they said that they wished to lead and in fact surpass the 
United States in the following areas: Quantum communications, 
supercomputing, aerospace, 5G, mobile payments, new energy 
vehicles, high-speed rail, financial technology, and AI, which 
is everything I do, right, and everything everybody here really 
cares about. These guys are smart, and they know what they're 
going to focus on.
    Now, we have studied this pretty carefully, and at the 
moment we are ahead in AI. We're ahead by some number of months 
or years, and the number is not large. There's every evidence 
that our current lead is very, very fragile and that China will 
catch up and perhaps surpass for the reasons that Dr. Souvaine 
already talked about. Some of the numbers, there are about 15 
times as many deployed 5G base stations in China as in the 
United States. Chinese researchers are expected to overtake 
Americans in the 1 percent of the most cited scientific papers 
in AI. By 2030 China is expected to in actual terms be larger 
than the U.S. in terms of R&D.
    So this competition with China is not zero-sum. A 
simplistic model would be to decouple, and that would be very 
damaging to America for the reasons that have already been 
outlined. And yet we need to recalibrate this. Espionage and 
intellectual property thefts, everyone here is aware of these 
things. We have to address those. Our model, which is a model 
of free and open society with people coming in, new ideas, and 
so forth, should be the model that wins, but it's under 
challenge today.
    As the Ranking Member said, the best defense is a good 
offense. I simply want America to win, and I think we all agree 
on that. So what is it going to take? How do we win in this 
incredible competition that's going to play out in the next 
decade? I have six proposals, which are just real quick.
    The first is we're going to need to take the core R&D 
funding and double it, as you already discussed in your 
statement. And we're probably going to have to double it again 
after that, but let's start by the first doubling. Let's grow 
this, let's invest in it. We really, really need that as a 
Nation. There are plenty of very, very good targets for this 
that will help the country in all sorts of ways.
    Second, in infrastructure--I'll just be blunt, we need an 
alternative to Huawei. We need a U.S. alternative that we're 
proud of and that works and so forth and so on, including 
spectrum sharing with the DOD, et cetera. With grants, and the 
way they work, we've been studying--and I've been looking at 
the NIH model. They have a pretty good model. They do multiyear 
investments in promising individuals, and let them sort of 
begin to build these new patterns of thought and build the 
ultimate institutions that lead our Nation.
    With respect to partnerships, there are so many examples 
where the government and industry and universities can work 
better. I'll give you an example. I think there's a huge 
problem with lack of cloud resources, cloud computing 
resources, so there are various proposals from your 
organization and others which are around national research 
clouds, access to the computing power that's needed to get 
these powerful algorithms to really bring them to their top 
ability.
    In talent, we've spent lots of time in the last few years 
talking to the government about AI, and the core problem, to be 
very, very blunt, is that the knowledge about AI is so 
specialized and very, very few of those people are in 
government. We need a path, a plan, and an approach that will 
get that talent into the government one way or the other--
training, hiring, mergers, partnerships, you name it.
    And then finally--and this is something which is not talked 
enough about--is that the Chinese have great confidence in AI. 
Seventy percent think it will make their country better. When 
you ask the same question to Americans, only 25 percent. We've 
got to address this. We've got to address concerns of which 
there's a long list: Privacy rules, investing in security, 
technical standards, avoiding algorithmic bias, preparing for 
the workforce impacts, which will eventually come from these 
technologies a long time from now. All of these things we have 
to address.
    So my point here is let's get ourselves onto a more urgent 
footing. This is going to be a big fight. It's going to be 
important. It's crucial to our national security, and it's 
important for our Nation and our Nation's identity, innovation, 
and, frankly, our economic growth. Thank you very much.
    [The prepared statement of Dr. Schmidt follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Johnson. Thank you very much. Dr. Abdallah.

               TESTIMONY OF DR. CHAOUKI ABDALLAH,

             EXECUTIVE VICE PRESIDENT FOR RESEARCH,

                GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Abdallah. Good morning, Chairwoman Johnson, Ranking 
Member Lucas, and Members of the Committee. Thank you for 
inviting me to address the topic of U.S. competitiveness with 
the focus on critical technologies and their economic and 
security implications from the vantage point of a research 
university.
    As you heard, I'm Chaouki Abdallah. I'm the Executive Vice 
President for Research at Georgia Tech, a leading public 
research university. We are a community of more than 9,000 
faculty, researchers, and staff, and we're incredibly proud to 
be serving about 36,000 of the brightest students from around 
the world. Within that community is also the Georgia Tech 
Research Institute, GTRI, an Army-university-affiliated 
research center.
    Like other universities, we benefited from Federal 
investments in research, and we contribute to the knowledge, 
creation, and economic activities. And until recently, as you 
just heard, most observers would have agreed with the 
assessments that, thanks to the national research strategy set 
more than 7o years ago, that the U.S. was indeed the undisputed 
leader in science and technology funding and in applications.
    The mission alignment and cooperation of three actors: The 
Federal Government, higher education institutions, and the 
private sector--have historically made the U.S. research 
landscape the most productive and admired in the world. But 
with that we attracted collaborators but also we became a 
target to competitors and foes who have sought to exploit the 
fruits of our research.
    And today, as you read in the National Science Board's 
recent report, ``The State of U.S. Science and Engineering 
2020,'' increasingly, the United States is seen globally as an 
important leader rather than the uncontested leader. And this 
is especially true in some of the critical technologies that 
we're addressing or discussing today.
    As detailed in my written testimony in a recent think-tank 
report, the risk of falling behind in critical areas and others 
pose an immediate national security risk and also a long-term 
economic risk. Achieving quantum supremacy, for example, will 
affect our current encryption systems. And materials that may 
be designed using machine learning algorithms are needed to 
achieve hypersonic flight.
    I do believe that the economic impact will manifest itself 
in the following way: Our ability to create new knowledge and 
industries will be diminished, thus impacting our economic 
health and competitiveness; reducing our ability to attract the 
best and the brightest and leading to further weakening of our 
national security and economic health.
    It is notable that the Office of Science and Technology 
Policy, the OSTP, through the Joint Committee on Research 
Environment, has initiated various initiatives to address 
urgent challenges facing research competitiveness. 
Organizations such as the AAU (Association of American 
Universities) and the APLU (Association of Public and Land-
grant Universities) have commented on such initiatives, and I 
agree that the research universities will play an increasingly 
critical role in preparing, recruiting, and educating a diverse 
pool of STEM talent but also in maintaining our collaborative 
efforts with our allies and producing knowledge that will 
improve the human conditions, all while supporting the national 
and economic security of the Nation.
    Through your efforts and in collaboration with higher 
education institutions and the private sector, we will 
modernize the research model that served us so well and has led 
to STEM sector generating more than $2 trillion in taxes per 
year, as well as supporting more than 2/3 of the U.S. jobs.
    In the face of the competitive challenges from other 
nations, as you heard, and the complex global problems the 
Federal Government has an even larger role to play in funding 
and guiding long-term research, while harmonizing many of the 
conflicting reporting and compliance requirements. It is also 
incumbent upon American universities to continue to strengthen 
their collaboration with the Federal agencies and government 
and with industry and to assume more responsibility outside of 
our traditional roles. Universities must become ready for the 
students they admit, as well as to admit college-ready students 
while scaling up the basic and applied research activities that 
made many of them economic engines. They must also continue to 
collaborate while protecting sensitive data and research.
    One of the best opportunities and most enduring strategies 
for improving our S&T position is obviously to nurture and 
engage a larger number from untapped domestic populations and 
to provide an academic environment for them to strive and 
succeed as students, faculty, and researchers. My colleague, 
the Dean of the College of Computing at Georgia Tech, remarks 
that it's one thing to be in front of someone and not be seen 
but quite another to not be in front of someone and to never 
have your absence noticed. The absence of large portions of our 
citizens within the S&T enterprise is definitely being noticed 
and felt. Research universities are committed to working 
closely with the Federal Government and the private sector to 
produce S&T workforce that is more reflective of our society.
    I thank you again for the invitation to speak with you and 
look forward to your questions.
    [The prepared statement of Dr. Abdallah follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Johnson. Thank you very much. That completes the 
testimony of our witnesses. And now we will go to the 
questions. I yield myself 5 minutes.
    Dr. Souvaine, I will begin with you. The National Science 
Foundation is celebrating its 70th anniversary this year. It is 
the only agency in our Federal Government dedicated to funding 
fundamental academic research across all fields of science and 
engineering, and the return on this investment over the last 70 
years has been immeasurable.
    However, the world has also changed in this time, and some 
policymakers and thought leaders are recommending that the NSF 
mission be broadened to include a deliberate focus on critical 
technologies. This might include, for example, creating a new 
directorate at NSF with its own dedicated budget line and more 
flexible DARPA-like authorities. How might such a directorate 
help advance U.S. competitiveness and critical technologies 
above and beyond the efforts already underway in the Federal 
Government? And how might we see it as a natural evolution of 
NSF's recent experiences such as convergence accelerators? And 
what steps would we need to take to ensure we continue to 
protect the essential basic research mission of NSF? Are there 
any potential concerns we should be looking out for?
    Dr. Souvaine. Thank you, Chair Johnson. I think NSF has 
already begun the evolution toward trying to guarantee that the 
outstanding results that come from the basic research and the 
applied basic research at the Foundation move fluidly into 
translation and into having impact. So currently within each of 
the directorates there are activities underway that try to move 
things forward. Then if you look at underneath the leadership 
of Director France Cordova, the work on the convergence 
accelerators or the big ideas or if you look at I-Corps or you 
look at various different initiatives, NSF has been evolving 
already.
    At the moment, as Dr. Schmidt has pointed out, though, 
things are urgent and we need to move faster still. We can't 
afford to leave our great innovations on the table and not pick 
up quickly. And suddenly that comes out of our S&E Indicators 
report from 2 weeks ago where we can show that in the U.S. we 
still fund more basic research than any other single entity, 
but others are funding more experimental research and are 
moving things forward more quickly. So we need to move things 
forward very quickly.
    Certainly if we were to have a directorate focused on 
accelerating these new critical technologies, this would be a 
smart change and would help this process, but it can't be a 
choice between investing in what we need now and what we need 
in the future. So we're going to need both. A new directorate 
focused on critical technologies could not thrive without the 
basic research seed corn on which things like AI and quantum 
are built. So I'd hope that this kind of proposal would allow 
us to enhance the focus of all the other NSF directorates on 
the high-risk, high-reward, long-term basic research to 
discover and invent the critical technologies of tomorrow at 
the same time as we accelerate the critical technologies of 
today.
    Chairwoman Johnson. Thank you. Dr. Schmidt?
    Dr. Schmidt. I agree, and I would say that not only--well, 
first place, all of my friends in academia spend most of their 
time saying things that are much worse now. It's much harder to 
get funding early in their careers, and there's a long list of 
complaints. Partly it's because there isn't enough money and 
partly because things like the new directorate would--don't 
exist yet and they would help a lot. So I'm strongly in favor 
of that.
    Chairwoman Johnson. Thank you. Dr. Abdallah?
    Dr. Abdallah. I would also agree and I would suggest that 
it is really the two parallel tracks that we need to focus on. 
Just like Dr. Schmidt, I was funded by NSF. My own research was 
funded by NSF, and the work I was doing then was basic 
research, but it had a lot of applications later. You heard 
about Google. Google was--the original algorithm is actually 
very fundamental research that ended up creating a lot of 
economic activity, so I think we need to continue to do both.
    Chairwoman Johnson. Thank you very much. My time is about 
expired. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair. And I address my 
questions to the entire panel.
    As I mentioned in my opening statement, having introduced 
legislation that would direct the development of a national 
science and technology strategy and quadrennial review like the 
process DOD undertakes for national security--and I know each 
of you touched on this, but expand for me if you would, please, 
just a little bit more about what you would like to see in a 
process of whole-government strategy for S&T and, as always, 
how that would benefit U.S. competitiveness, just whoever would 
like to take that.
    Dr. Souvaine. Could you repeat the question?
    Mr. Lucas. Basically expand on your comments about what you 
would like to see in a process for a whole-of-government 
strategy on S&T and of course how that would benefit U.S. 
competitiveness. Because I have to explain things back home to 
my constituents, too.
    Dr. Souvaine. So I think that the U.S. needs to compete 
with values, talent, partners, and research infrastructure. We 
need to nurture homegrown and foreign-born talent to build our 
STEM-capable workforce. We need to prepare our domestic 
students from every ZIP Code and every background to think 
creatively with the STEM concepts that touch every area of our 
lives. And we need to do a dramatically better job of preparing 
our domestic students.
    At the same time, while we're doing this, we're dependent 
on foreign talent. We would leave the door open for the best 
and brightest, especially in the critical areas of computer 
science and math and engineering. We need to invest in critical 
areas of basic and applied science while supporting public-
sector partnerships and development. And we need to be a 
reliable global partner and collaborator. Not doing so makes us 
a risk of becoming a victim of technological surprise when 
discoveries happen someplace else.
    And sustaining our investment in fundamental research is a 
key competitive advantage, but we need to make sure that it 
leads to innovations and increase the efficiency of that 
process. That means fostering the partnerships between 
academia, industry, and government and explore ways to break 
down the barriers that are preventing the fruitful partnerships 
right now.
    And finally, we need to retain our foundational American 
values of freedom of inquiry, openness, transparency, authority 
based on merit, scientific integrity, and an appreciation for 
creative and unusual ideas and have an intentionality about 
where and how we make investments.
    Dr. Schmidt. The United States got to where we are because 
of a unique combination of government, academia, private-sector 
collaboration in the open community and culture that Dr. 
Souvaine just talked about. We need to strengthen those links 
between Federal agencies, the military, private-sector, 
academics in all sorts of ways, whether it's the FFRDCs 
(Federally Funded Research and Development Centers) that are 
used as part of the military process, other kinds of 
interesting funding that comes to the NSF, DARPA, and so forth 
and so on. So I think the general answer is more of what we're 
doing at a global scale.
    We have the talent. People want to come to our country. 
People are incredibly creative here, and we have a strong 
challenger in China, which runs under a different system that 
we don't like.
    Dr. Abdallah. I believe our model worked extremely well and 
continues to work well, but an alignment of the incentives and 
alignment in the policies, alignment in the reporting I think 
will actually benefit us at this stage. Sharing data, sharing 
research data is important, but we have different ways right 
now, different agencies, different policies, different 
reporting requirements. Something like that, improvement in 
that aspect will help tremendously.
    I think also encouraging the incentives to try to get the 
research out of the universities. Even the basic research that 
we do at the universities in many cases is leading to ideas 
that may not be today implementable or has economic impacts, 
but it will need support, you know, between the lab and getting 
a large company or an investor to go in there. Facilitating 
that or encouraging policies to do that I think would be 
extremely important.
    Most importantly, I think investing in infrastructure I 
think is key, and in many cases some of the startups that we 
have in Atlanta, for example, they cannot afford to have the 
facilities that we may have at the universities, but also those 
facilities sometimes are not equipped to handle the requests 
from these companies.
    Mr. Lucas. As you heard me say in my opening comments, I am 
a supporter of doubling the money that we spend on federally 
funded basic research in the next decade. Part of the challenge 
that we have here in Congress is not only convincing the 
majority of each other of the importance of this but convincing 
those American taxpayers back home that this is fundamentally 
in their best interest. So thank you for being here today to 
help make that case.
    Chairwoman Johnson. Thank you very much. I love your 
statement. Mr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman. You know, we talk 
about the competition between America and China and the rest of 
the world. We do have some natural advantages that, you know, I 
think Dr. Schmidt, as you said, we are a free and open society. 
We are a society that's based on the rule of law. And, you 
know, you travel anywhere in this world, people still want to 
come to America. And there are some simple things that we could 
do through policy that actually give us a competitive advantage 
that we have done in the past.
    If I think about my own family's story, my parents 
immigrated in the 1950s from India to go to college at USC to 
get their graduate degree. And they were lucky enough to get a 
visa to stay in this country. And, you know, Dr. Abdallah, you 
talked about the number of students that are coming here, 
getting their college training, getting their graduate degrees 
and their Ph.D.s, yet a lot of those students are having a 
difficult time staying in the United States. And these are the 
next generation of entrepreneurs. That is something that is 
eminently within the possibility of this body to fix, to allow 
those folks to start their companies here, to stay here.
    You know, I don't remember the exact percentage, but a 
large number of the entrepreneurs and the startups are started 
by immigrants. It is good for our economy. It creates a ton of 
jobs. That was one of your six points, Dr. Schmidt as well and, 
you know, invest in that talent and allow them to stay here.
    I absolutely agree with the Ranking Member. We do have to 
double our investment in R&D. You know, I'm not smart enough to 
be an engineer, I went to medical school. But a lot of the 
Ph.D.s that I trained with, you know, that was a talent pool. 
But I talk to those Ph.D. students today. You know, many of 
them were going to stay in academia. A lot of them now are 
going to get their training and go out and join the private 
sector. That's not a bad thing, and maybe this is a question 
for Dr. Schmidt.
    When academia has unique talents and resources, how do we 
do technology transfer a little bit better? How do we allow the 
private sector to partner with the academic sector? Because 
there's also resources that the private sector can do. And, you 
know, I think there's some technical changes that we could do 
through policy through perhaps the tax code to make it a little 
bit easier for the private sector to partner with research and 
academia.
    And maybe, Dr. Abdallah, you could talk about some of what 
Georgia Tech is doing in that space.
    Dr. Schmidt. So half of the Silicon Valley startups are 
started by immigrants. And so everything you said is correct in 
the economic terms. The state-of-the-art is for technology 
companies to work very closely with universities, literally 
seamlessly. Much of this was done in the biology space where 
they created joint ventures and so forth, and they actually 
control the IP. But pretty much everybody's figured out that 
you want to be next to a leading university. You want the 
students going back and forth. And you want as a company, you 
want to give that university money in the appropriate ways 
because the university doesn't have enough money from its other 
sources. And I think that's a sustainable model.
    Mr. Bera. Dr. Abdallah, and maybe some examples with 
Georgia Tech?
    Dr. Abdallah. Yes. Thank you for that question. Actually, 
as you heard, in my capacity as VPR I'm also responsible for 
the economic development and the innovation. We have a lot of 
activities with the companies, both large companies who created 
innovation centers on campus, as well as opportunities for 
small companies and startup to start either from within Georgia 
Tech or from anywhere to be supported there. So we have 
programs and activities in that space.
    I think there are a couple of things to keep in mind and to 
help us with. One is companies, as you just heard from Dr. 
Schmidt, they want to be close to research universities or to 
universities both because of the talent pool, as well as to get 
the IP and the results of the funding or the research that 
comes out of those. But that transfer being close, you know, 
physically located or co-located with other companies and other 
entities that are engaged maybe sometimes competitively in the 
same businesses is very good.
    There's one aspect that I think we can maybe work toward 
that we're discussing at Georgia Tech and other places. In 
areas such as AI, you know, universities cannot afford to pay 
what Wall Street and what the top technological companies are 
offering, so--and in many cases we have faculty members who 
will leave, take a leave of absence to go to some of these 
companies and, you know, ask for 1 year, which is fine, and 
then try to extend it. That puts the universities in a very, 
very awkward situation. We want them to stay, we want them to 
engage with the companies where, by the way, the companies have 
a lot of the data that is needed to do the research also. It's 
not simply the money. So models that will allow that 
relationship to be two ways versus basically for the companies 
to hire away from the universities and eating the seed corn of 
the future researchers would be very, very appreciated.
    Mr. Bera. Great. Thanks. My time's expired. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Brooks.
    Mr. Brooks. Thank you, Madam Chair. My comments and 
questions are directed primarily at Dr. Schmidt, but if there 
is time remaining after he responds and, Dr. Souvaine or Dr. 
Abdallah, feel free to join in as you wish.
    I'm looking at Dr. Schmidt's written testimony, and I'm 
going to read some quotes from it. Quote, ``The United States 
now faces an economic and military competitor in China that is 
aggressively trying to close our lead in emerging 
technologies.'' Quote, ``China's well-documented espionage, 
intellectual property theft, and talent recruitment programs 
are disadvantaging our companies, our universities, and our 
military. The findings of a recent Senate investigation into 
China's methods to unfairly exploit United States taxpayer-
funded research for its own benefit is a case in point.''
    Quote, ``My concern is that China tries to fulfill a vision 
of high-tech authoritarianism that governing model will appeal 
to other governments searching for a foundation on which to 
exercise their power.'' And when I think of that high-tech 
authoritarianism, I can't think--I can help think of George 
Orwell 1984, Fahrenheit 451, Animal Farm, and others. Then, Dr. 
Schmidt, you go on to add, ``We should not only compete with 
China but also work with them.''
    Now, as I think of all your comments put together--and I 
serve on the Armed Services Committee, and we have plenty of 
briefings, classified and unclassified. I can't go into the 
classified part, but the gist of it is that China seeks to 
manage America's decline. And so there is a significant long-
term risk there. Certainly their military prowess is 
increasing. The challenges associated with their claims to the 
South China Sea are troubling for that region of the world.
    And to make matters even worse, the United States-Chinese 
trade deficit, China is the worst trading partner we have. Our 
trade deficit there is about 6 times worse as the second-worst 
country on the planet.
    So now to the questions. How do we protect United States' 
interests with respect to this technology? That's part of it. 
And can you share some examples, as much as you can in this 
open setting of where you think there are opportunities to 
cooperate that would benefit the United States and areas where 
we should not cooperate for economic and security reasons?
    Dr. Schmidt. So thank you for that. So you have to have a--
the competition with China is going to be the defining 
competition for the next 10 or 20 years. And the peaceful rise 
of China is in our interest for obvious reasons. So it seems to 
me that we have to come with a language and a way of dealing 
with them.
    So the first is I would like us to agree that America 
should win, and winning is defined as defining the key 
technologies, inventing the future, driving the technology 
stack, and all that kind of stuff. To the degree that Chinese 
technology or technologists can enable us to win on our terms 
I'm OK with it but not unless it's consistent with that.
    So there are plenty of examples where you could imagine if 
Chinese technology were to dominate the globe with non-American 
values, it would really hurt us. The most obvious would be 
imagine if the internet were invented by China with a complete 
surveillance architecture? Just imagine if we inherited that 
from China, how different our experience as Americans would be 
today. So it's really important that we get these underlying 
technology platforms of which the internet is an example that 
we have so far won at, to be popular and be successful 
globally.
    One way to think about China is that they have solved the 
problem of identity, mobile phone, electronic payment, and 
surveillance in a single device. And my Chinese friends never 
use cash. But of course everything they do is tracked. And this 
is very un-American.
    Now, imagine if that structure becomes the standard 
structure in all of the BRI countries, the Belt and Road 
Initiative countries, of which there's roughly 63. That becomes 
a huge, huge problem for us. It's a market we can't sell into. 
It strengthens their leadership and so forth and so on. We 
don't have good answers as a country for this.
    Mr. Brooks. Dr. Abdallah or Dr. Souvaine, in the time that 
remains, would you all like to add any additional comment?
    Dr. Souvaine. I'd say briefly, certainly we need heightened 
vigilance as the information yesterday about the arrest of the 
prominent Harvard chemist suggests. Looking at conflict of 
commitment, conflict of interest, and we need partnerships 
between the Federal Government and the universities to do that.
    At the same time, as we think about competing with China, 
first of all, it's not just China but it's certainly a lot of 
it there. But we compete by being the best version of 
ourselves. We need to recognize and respect that China and 
other nations contribute to humanity's knowledge, and it's a 
good thing. We also know from the S&E 2020 report that our 
researchers across this country are publishing many more 
collaborative papers collaborating with international 
collaborators, and the single country that we collaborate with 
the most is also China.
    So we need to understand that that's important, but we need 
to be the best versions of ourselves. We need to promote 
openness while recognizing the balance between collaboration 
and security. We need to embrace competition, discovery, 
openness, fairness, immigration, international collaboration, 
curiosity-driven research, public education at all levels, our 
government-university-business ecosystem, but really do what 
Dr. Schmidt says. We need to be promoting our values because 
we're at the table. We're investing. We're part of every 
discussion, and we continue to promote our version of what it 
means to be honest, open, transparent, and successful.
    Mr. Brooks. Thank you, Madam Chair. Thank you, witnesses.
    Chairwoman Johnson. Thank you very much. Ms. Stevens.
    Ms. Stevens. Thank you so much, Madam Chair.
    And as Mr. Lucas referenced his disposition in this 
Congress, I'll say being in the majority and doing things on 
our terms certainly feels good, and so I will also second your 
comments, Dr. Schmidt, that as we look to the race of the 
future and winning the innovation future, the reason why it is 
so important for us to talk about it being on American terms is 
because then we set the stage. It is our jobs, it is our 
transparency, it is our technological might.
    But the headlines are also quite alarming over the last 
several years. In 2017, The Atlantic monthly, coming out of the 
President's budget proposal, had a headline that we are bracing 
for a lost generation in scientific advancement and research 
funding. As by comparison looking at our friends overseas, the 
U.K. just doubled their funding for R&D. South Korea has made a 
similar commitment, even our partners from the north without 
question.
    So what we're also talking about is sort of a dialog, a 
social dialog here in Congress and with our constituents back 
home. But most simply, you know, Dr. Schmidt and Dr. Abdallah, 
in terms of the work that you do, how much is your current work 
dependent on basic research funding from the United States 
Government?
    Dr. Abdallah. In my day job basically my job is to 
facilitate the work that everyone else is doing, so I would say 
at the university probably more than 80 percent is depending on 
the basic research, including things that are happening at 
GTRI, which is the applied research arm. But even in that sense 
we're depending on things that either were developed earlier or 
are being developed elsewhere.
    Ms. Stevens. And if that basic research funding, sir, was 
to dry up--not that that's what's being proposed--would there 
be any alternative?
    Dr. Abdallah. Not if the Federal Government is not priming 
the pump and funding that. I don't see any alternative, no.
    Ms. Stevens. And, Dr. Schmidt, I know you're not here in 
your previous capacity, but you referenced your work with 
Google. And if it's correct, Google now is one of the five--I 
guess it's Alphabet, right--but it's valued as one of the five 
most high-performing stocks by market cap. But you traced it 
back to basic research funding. Could that have happened 
without basic research funding?
    Dr. Schmidt. It would not have. And the core reason is that 
in the American system, the basic research is earlier than 
corporate research. So the basic research, which is largely 
government-funded with some philanthropy--and I'm personally 
trying to do that now--is the seed corn. And everything that 
has driven American competitiveness and American economics has 
fundamentally started from that 50 years ago. So your 
predecessors made these incredibly smart decisions 50 years ago 
starting with Vannevar Bush and the creation of the ecosystem 
that we have today post-World War II.
    And we seem to have forgotten how fundamental this is. 
Everyone thinks, oh, my God, you know, I invented this, I 
invented that. You're standing on the shoulders of giants who 
were originally funded. Virtually all of Silicon Valley was 
either DARPA-funded or National Science Foundation-funded or 
university-funded through that mechanism.
    Today, all of the leading technology companies are very 
integrated with their university counterparts. It's very 
symbiotic. Let's not screw that up.
    Ms. Stevens. Good point. And, Dr. Souvaine, just from your 
vantage, are you aware of any other modern industrialized 
nations that debate the merits of funding basic research in 
such a way that we have dared to do so here in the United 
States?
    Dr. Souvaine. No, I'm not exactly. I would have to look 
into that more carefully.
    Ms. Stevens. Great. Thank you.
    Dr. Souvaine. But I would just echo what Dr. Schmidt said. 
Certainly there are VC (venture capital) capital people who've 
come to talk to us on the board who talk about the fact that 
what they're commercializing today they know came from a pie-
in-the-sky NSF grant 25 years ago. And they are very concerned 
that they are still going to have something to commercialize 25 
years from now.
    Dr. Schmidt. Can I just add that the Chinese are doing 
heavy, heavy government funding in basic research in order to 
catch up. And when I say heavy, we don't exactly know the 
number but it's a very, very large number.
    Ms. Stevens. Well, thank you. We'll remember all these 
points as we head into budget season. And with that, Madam 
Chair, I yield back the remainder of my time. Thank you.
    Chairwoman Johnson. Thank you very much. Mr. Babin.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. Thank you to 
the witnesses for being here as well. I appreciate it.
    It's critical that we continue to invest in our sciences to 
promote technological innovations here in America. Our 
investment and prioritization in this country, science and 
technology is a determining factor in our global 
competitiveness. But we must protect our information.
    We've even seen the infiltration of Chinese influence in 
our university systems as recently as a couple of days ago. 
Just yesterday, I read an article reporting the arrest of the 
Chairman of Harvard University's Chemistry Department, Dr. 
Charles Lieber, for lying about receiving millions of dollars 
from the Chinese possibly in exchange for cutting-research 
information. Also, a researcher at Boston University was 
charged as a Chinese agent and lying about it. It is a distinct 
problem.
    I've introduced a bill that will enable institutions of 
higher education to protect federally funded research from 
cyber theft and interference. It's called the Securing American 
Research from Cyber Theft Act, and it will provide a pilot 
project for a nationwide network of secure computing enclaves 
for federally funded research in universities.
    And with that being said, Dr. Abdallah, the FBI and 
intelligence agencies have warned Congress about the threat of 
foreign espionage of U.S. science and technology, particularly 
on university campuses. How can we best work with law 
enforcement to address this threat?
    Dr. Abdallah. Thank you for that question. Actually, the 
FBI and other U.S. law enforcement agencies have been proactive 
in discussing with universities, educating us sometimes on some 
of the things that were happening that either we were not aware 
of or entities that we were not concerned about at one time. So 
in the last couple of years I'll say there has been a much more 
collaborative effort, education from the law enforcement 
agencies. And in fact some of the news that you're seeing are a 
byproduct of the universities being much more aware and trying 
to figure out exactly what these conflicts of interest that 
used to be focused on only financial conflict of interest, what 
we can do about them.
    Some of the things that I think are happening from our side 
is we're educating our researchers a lot more about protecting 
sensitive information. I do want to say also in some of these 
areas it's not necessarily that piece of information, but that 
is information in connection with others. There are a lot of 
connections between some of these areas and so on.
    One thing that I think would be very helpful is to 
reestablish the National Security Higher Education Board. This, 
as you know, was a board of universities and the government to 
try to look at some of these concerns and try to set policies 
in place.
    Mr. Babin. All right. Thank you very much. And I think 
that's a great idea myself.
    Dr. Schmidt, I'm very concerned about moves that China is 
making on 5G wireless technology, particularly in trying to 
dominate the global market. I understand that the U.K. just 
recently chose Huawei for their 5G. What do we need to do to 
not just compete but to lead in the 5G race?
    Dr. Schmidt. There's a set of things we have to do. There's 
plenty of money, but there's no U.S. competitors at the scale 
that we need. So we need a good 5G solution at a sort of 
national level for hardware, and we also need something which 
the telcos don't have enough of, more good mid-band bandwidth. 
Today, they're working in a technology area called millimeter 
wave, which is very high performance but has some coverage 
issues. It's not as good as the mid-band, which everyone else 
is using.
    I have separately and as part of my military work argued 
that the DOD should share some of its key frequencies with the 
telcos in order to enable this. I believe that the United 
States needs a competitive 5G plan.
    Today, the reason these countries are purchasing Huawei is, 
one, it's cheaper than the competitors; and two, they're 
getting very cheap money out of China to do so. That then 
enables China to populate their networks with all of the 
Chinese principles. How is that OK with us?
    Mr. Babin. It's not OK. OK. Thank you very much. And also, 
China's investment and development and not on basic research 
implies that they're building their technological success on 
the basic research developed in the United States and around 
the world. What is the right balance for protecting U.S. basic 
research while continuing to promote an open-science system 
that has made our scientific enterprise the best in the world, 
Dr. Schmidt?
    Dr. Schmidt. First place, the stuff that you're describing 
where those are illegal activities, they need to be 
aggressively policed. Those are violations of our law and 
they're not OK. You can imagine a number of ways of 
strengthening those, more disclosures, things like that, things 
that you have talked about in your security bill.
    To me, the way we win is we run faster. We invent ahead. We 
benefit from the American model, and we just run faster. I 
think collectively yourselves and we believe that we can do 
that. We can win this, but it's a run-faster strategy.
    Mr. Babin. Thank you. And my time is expired. Dr. Souvaine, 
I had one for you, but I'll have to pass that till later. Thank 
you, Madam Chair.
    Chairwoman Johnson. Thank you very much. Dr. Foster.
    Mr. Foster. Thank you. Doctors--over here, Bill Foster, the 
physicist and chip designer.
    I was fascinated by your comments on what can be called the 
unified Chinese solution to identity payments, communications, 
and surveillance. And this is something we're wrestling with on 
my other Committee, Financial Services, where I'm chairing a 
task force on AI that, among other things, is looking at 
identity and all the things there, also as part of a bipartisan 
push to get the Federal Reserve to consider issuing digital 
dollars, which of course deals with all those same issues.
    And so, first, do you believe there are technological 
solutions, you know, like, you know, FIDO or federated ID or 
privacy-preserving biometrics that would allow you actually to 
solve the problems of identity payments without the 
surveillance aspect of it?
    Dr. Schmidt. Technically, yes, for the reasons that you 
outlined. It's not clear to me that politically that would be 
acceptable in America. I'll let you guys decide that question. 
What China has done is it's made access to the internet to be 
tied to a national ID. There's no anonymous browsing in China. 
So once you eliminate anonymous browsing, you have a registered 
ID which you then tie with a face photo. At that point you can 
track the person not only digitally but also by cameras and so 
forth so you know physically where they are and you know what 
they're doing.
    The next thing they do is they have a common credit card 
that they all use, which is essentially government-controlled. 
And that common credit card, all that data goes into a central 
processor. So now we know what the person looks like, where 
they are, what they're surfing for, and what they're spending 
money on.
    Mr. Foster. Right. And we need some element of that to deal 
with money laundering and ransomware and the long list of 
things like that. The advantage we have is potentially that we 
may have a trusted court system that could keep government's 
hands off of that data, anyway, long discussion not for this 
Committee, but I'd be fascinated to engage with you separately 
on that.
    As you may or may not be aware, I'm the science guy, but I 
also started a company that makes most of the theater lighting 
equipment, and we've been on both sides of patent fights. And 
when we were engaged in patent fights, I felt at the time that 
there was a pretty good balance between the rights of patent 
holders and people that wanted to manufacture stuff. But it's 
my feeling that things have drifted in a direction where you're 
off-center, that the system integrators have now--of which you 
are, you know, involved with one of them, really got too 
powerful so that you have this doctrine of so-called efficient 
infringement.
    And it's a real problem because if you're going to 
manufacture a cell phone, you have to license or infringe upon 
1,000 patents or something like that. And so you have to have a 
patent system that deals with that properly. You can't let all 
1,000 people hold up your ability to manufacture a cell phone. 
But on the other hand, you know, there's a lot of feeling, 
including by me, that we've actually weakened the system too 
far.
    And now that you're no longer associated with a dominant 
system integrator, I was wondering if you would step back and 
if you think the needle is well-centered at this point? And I 
just want to put in before I let you speak for a moment that 
I'm one of the sponsors of the Stronger Patents Act of 2019, 
that's an effort to move the needle back in terms of increasing 
the power of patent holders over the system integrators.
    Dr. Schmidt. I'd have to look at it more specifically. This 
battle has been going on for a very long time, and it's an 
important issue of rights. My advice would be, let's focus on 
the prize, and the prize is American competitiveness competing 
against China in the technology areas that I've identified. 
Please don't do anything that would slow down our ability to 
innovate in these spaces. Do everything you can to cause more 
investment and more innovation.
    Mr. Foster. Right, but part of that is preserving the 
rights of the patent holder. If you come up with a good idea 
and then get no renumeration because someone stole it. I mean, 
you're aware of the situation with Huawei and Cisco, right?
    Dr. Schmidt. I am.
    Mr. Foster. You know, if China had a functional patent 
system and a court system, Huawei would be a wholly owned 
subsidiary of Cisco. You know, it really would be because of 
the intellectual property theft. But they didn't certainly at 
the time. And so, you know, we have to get this balance right 
to optimize investment. And it's a deep question. If you can 
have a look at the Stronger Patents Act of 2019 and see if you 
agree with its goals.
    Let's see. And, actually, Dr. Abdallah, do you have any 
comments on how the patent system is working from your point of 
view?
    Dr. Abdallah. From the university point of view, you know, 
we consider that as a byproduct of the Federal funds, meaning 
we don't expect to generate a lot of money out of it. You know, 
most people think that universities or these ideas coming out 
are making the universities rich. In fact, we support it, you 
know, more than we get out of it. So anything that would make 
it more efficient and beneficial for the ultimate goal I am 
very much in support of.
    Mr. Foster. All right. Thank you, and yield back.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair. And this question is 
going to go to all of you. And I appreciate your expertise and 
being here as a witness, but the Securing Leadership in Science 
and Technology Act, which I'm an original cosponsor, really 
prioritizes investing in pipelines for the American STEM 
workers. And that ranges, as you well know, from skilled 
technical workforce to cybersecurity professionals to Ph.D.s in 
areas of need like AI and quantum. And so as, a Ph.D., I 
understand the importance of research and particularly the 
STEM-related fields.
    So my question to you is, can you comment on the national 
and economic security risks of failing to develop a domestic 
STEM-capable workforce? Start with you, Dr. Souvaine.
    Dr. Souvaine. I think when we look at the S&E indicators 
that came out 2 weeks ago, we can see that if you look at 
overall the amount of dependence we have had and continue to 
have on foreign-born talent and yet if you look between 2015 
and 2017, you can see that there's a little bit of a dip in 
terms of foreign talent coming into our programs. At the same 
time if you look at the report, you can see that the 
performance of the United States for, say, eighth-grade 
students in math and science is mediocre relative to the rest 
of the world.
    That suggests a couple things. One, we need to continue to 
rely on foreign talent in the medium and the short term. In 
fact, we will always want to be attracting the brightest and 
the best, as Dr. Schmidt has said. At the same time, it is 
critical, it's urgent, it's now we need to figure out how to 
make the pathways there for every American, every ZIP Code, 
every background to find the pathways to be successful in STEM 
at whatever level, whether it's being the skilledworker that 
help keep LIGO going that needs so much more STEM know-how than 
an HVAC (heating, ventilation, and air conditioning) worker 
needed 25 years ago, but we wouldn't have made the discoveries 
of LIGO without that person.
    But what are we going to do? We need to recognize us 
because of computer scientists, the creativity, critical 
thinking, communication, perseverance, all sorts of things go 
into it. And there are multiple pathways to get there. It's not 
a tower. And because someone has taken a certain number of 
courses and is successfully this way doesn't mean they can't 
participate in the STEM economy. We need to have multiple 
pathways, multiple pipelines. And we need to get on it now.
    Dr. Abdallah. I myself came here to study, came to the 
United States to study. There is a benefit to keep that door 
open. One is others have already paid for that first 13, 14 
years of their studies. And they come from a diverse and 
different background, so they bring with them also other ideas.
    The demographics of our U.S. college students also is key 
because we're not graduating enough students to feed the 
pipeline also. So there is a lot of work to be done there to 
get our U.S. students both educated and prepared to come to 
college. And the best opportunity or the largest opportunity is 
where we haven't made a lot of headway, and that is in the 
underrepresented populations. You know, so that's where the 
opportunity is.
    There's one thing I want to comment also on, and it goes 
across all of these points that we've been discussing, and that 
is we're focusing on the competition and our competitors with 
China, but we're not alone. We have allies. We have people we 
work with in other countries who share our values. And I think 
keeping that relationship in science and technology and basic 
research is extremely important.
    Mr. Baird. I'm close to running out of time, so thank you, 
and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Casten.
    Mr. Casten. Thank you, Madam Chair, and thank you all so 
much for coming.
    I want to echo, all of you have made the comment that, you 
know, so much of our STEM workforce is foreign-born, and all of 
you I think have in some fashion raised concerns about are we--
do those foreign-born, U.S.-trained engineers choose to stay 
here or go elsewhere?
    I want to focus on a different concern I have that I think 
we are in many ways keeping them out in the first place. I'm a 
chemical engineer by training. I went to Dartmouth for my 
master's degree, did my research on cellulosic biofuels because 
I really wanted to be a Member of Congress one day, and served 
for 10 years on their Corporate Collaboration Council, which 
essentially was alumni trying to make sure the degree program 
remained professionally relevant.
    In the first 2 years of the Trump Administration with the 
Muslim ban, with the rhetoric coming out, we saw 30 percent and 
then 30 percent again declines in applications of foreign 
students to the program. Now, our matriculation rate stayed 
fairly high, you know, thanks to the hard work of the 
Administration, but obviously you start to get into real 
concerns of can you maintain the same caliber of institution 
with a smaller application pool?
    I'd like to submit for the record--I ask unanimous consent 
if I could an ICEF Monitor story that came out in April 2019, 
which says that over the most recent 2 years we have seen 
steady declines in the number of foreign-born students on 
active student visas in the U.S., suggesting that is not just 
our singular experience up in New Hampshire.
    So my first question is just a simple one for all of you. 
We've all agreed and I think on a bipartisan basis that we 
should double U.S. R&D budgets. Can we effectively spend those 
R&D dollars and get the most out of that research if we're not 
allowing talented foreigners to participate?
    Dr. Souvaine. We need to make this country a magnet for 
people all over the world, for foreign-born talent and for 
domestic talent, to come here and to contribute to the 
innovation that happens here and our economy and our security 
and around the world. So we need to be open and accessible. And 
we can entice more people. And it's more competitive right now. 
As other countries enhance their own portfolios, globally 
mobile talent has more options of where to go. We need to be 
the place that they want to be.
    Mr. Casten. I'm taking that as you'd agree. I mean, I'm 
assuming--and please chime in if any of you think that keeping 
foreigners out is a good way to maximize our research spending. 
I'll take that as a no.
    Do any of you believe that the decline in foreign students 
studying in the United States reflects a decline on the part of 
the desire of foreign students to come study in the U.S., would 
you share my view that this is a just declining numbers of 
visas available?
    Dr. Souvaine. I think there are more options and there are 
more countries that are providing resources. We need to make 
sure that we have the research infrastructure that means that 
they can come here and do the research that they want to do. We 
need to have the funding and the pathways certainly with visas 
and the ability to stay here. So I think we need to do our 
work.
    Dr. Schmidt. Pretty much every country has figured out that 
leadership in our area that we're discussing, especially in AI, 
is going to be part of national competitiveness, national 
security, and economic things. All of them have programs to try 
to keep their people from leaving and coming to the United 
States. So there is an issue that talent is becoming more 
globally competitive. The good news is the American model 
remains very attractive.
    Mr. Casten. OK. Dr. Abdallah, if I could close with you. I 
think that if we tell the best and the brightest around the 
world that we don't want you here, it's a good way to make sure 
we don't attract the best and the brightest to our shores.
    You mentioned in your testimony the one consequence of U.S. 
research efforts falling behind the rest of the world is that 
our country will be less able to attract the best and brightest 
minds from abroad. Would you say then that our failure to 
create a fair immigration system could cause damage that would 
be harder to repair down the road? And when we get beyond our 
current xenophobic era, what should we do to restore some of 
that credibility?
    Dr. Abdallah. I think, as you just heard, we want to 
continue to be a magnet. And if we are, if we open our 
applications and if we make it so that the work that we're 
doing in here and we invest into our science and technology, 
then they will come. The reason today--one of the reasons why 
everybody else is copying our model is because it was working. 
And when we changed our model, then I think it becomes a lot 
less attractive. I think the best and the brightest want to go 
to where they're welcome but also where they can do their best 
work. And I think that's what we need to continue to do.
    Mr. Casten. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Balderson.
    Mr. Balderson. Thank you, Madam Chair, and thank you, 
panel, for being here this morning.
    Two questions, two-part question. Dr. Souvaine, I'll ask 
you first. As the Chair of the National Science Board, can you 
comment on how the National Science Foundation is working with 
private industry and what more you think needs to be done to 
encourage those partnerships and the impact that we can expect 
from the greater involvement?
    Dr. Souvaine. I think at the current time there's more 
partnership that is happening between the Foundation and 
industry. And certainly with the proposal that was discussed 
earlier about incentivizing NSF to do more with translation, 
that helps make it more possible.
    I think also in light of a question that happened earlier, 
I think that there are sometimes impediments to partnerships 
being kicked off. There are one-off relationships that have to 
be created. And I know right now there's work being done 
looking at the Bayh-Dole Act. I believe NIST is chairing and 
NSTC (National Science and Technology Council) is convening and 
kicking off some discussions and they issued a paper I think a 
few months ago about ways to accelerate partnerships and have 
to remove any barriers.
    But I think clearly right now it's going to be key to 
accelerate the partnerships among government agencies, 
industry, and the universities and make sure that we make the 
system frictionless. We accelerate our innovation as quickly as 
we can.
    Mr. Balderson. And I agree with that. Dr. Schmidt, what can 
Congress do to further support the government-industry-academia 
research relationship?
    Dr. Schmidt. I outline some of the comments in my report. I 
think there are some mechanism changes as to how funding occurs 
to be a little bit more flexible. I think we would probably all 
agree with that. More money is obviously important. More shared 
facilities. I highlighted, for example, research cloud, other 
things like that is sort of a reasonably obvious list of 
infrastructure that would help both industry, private, and 
cause things to occur faster. All of the issues around talent 
that were previously discussed, all the focus on STEM also 
helps.
    But I think if you think about it, it's a small group. What 
do they need? They need a few more people, they need to rush 
fast, they need some infrastructure. This is not relatively 
expensive compared to like cyclotrons. And off they go. That's 
the American model of creativity, and it's extraordinarily 
valuable. Seventeen of the top 20 research universities in the 
world are Americans today. This is a crown jewel of our 
country.
    Mr. Balderson. You brought up the financial piece, and that 
was my second part of the question. How can we use these 
partnerships to overcome some of these financial barriers? Any 
thoughts or suggestions? And anybody on the panel can answer 
that also.
    Dr. Schmidt. Well, in general, the government is 
complicated to spend and partner money with for many, many 
reasons. And I think having relatively simple ways for light 
partnerships where people say, look we're going to work 
together on this where it's clear where the intellectual 
property goes is probably a simplification that would be 
helpful.
    Dr. Abdallah. I think supporting infrastructure, you know, 
which sometimes is costly. You know, it's not as costly as what 
Dr. Schmidt mentioned in some cases, but that would be one 
area.
    I think collaboration with the national laboratories, too, 
is key in this space. You know, we have also another piece of 
this research ecosystem, a lot of work that's being done at the 
national laboratories both for national security, national 
defense, but also for other areas and collaborating with 
universities and companies there is important.
    You know, in order to create disruptive innovations, 
sometimes what we really need is consistency in funding and 
clarity in regulations. A lot of times, you know, if we have 
that, then we can let the imagination of the researchers and so 
on go. So it is extremely important to have the funding for the 
basic research. I think a lot of times it is in the policy 
domain that I think we can use a lot of help.
    Mr. Balderson. OK. Thank you. Dr. Souvaine?
    Dr. Souvaine. To just go back to your question about NSF 
and partnering with industry, one recent highlight is that the 
CISE (Computer and Information Science and Engineering) 
Directorate and the Social, Behavioral, and Economic Sciences 
Directorate are partnering with Amazon jointly to support 
research that's focused on fairness in AI with a goal of 
contributing to trustworthy AI systems that are readily 
accepted and deployed to tackle grand challenges facing 
society.
    There are other partnerships that they have recently 
created with Google and Boeing, again, to capitalize on areas 
of research that are of interest to both parties but to 
reiterate that each one takes a lot of startup time to get 
going because of various pieces of friction that make it 
possible.
    Mr. Balderson. Thank you very much. Madam Chair, I yield 
back.
    Chairwoman Johnson. Thank you very much. Mr. Beyer.
    Mr. Beyer. Thank you, Madam Chair. I was fascinated by Dr. 
Schmidt's opening thoughts on doubling the Federal R&D budget, 
and I've heard this from all of you. We see from the paperwork 
that was 0.7 percent last year and 1.6 to 1.9 percent in 1960, 
so basically, you know, 40 percent, 35 percent. Should we look 
at this as a long-term commitment to a specific percentage of 
GDP or specific percentage of the Federal budget rather than 
simply doubling the dollars that we have right now? And in 
doing that, how best do we do that, structuring through a 
commitment from the Budget Committee or a resolution of 
Congress saying we commit, for example, the 2 percent of GDP 
for Federal R&D?
    Dr. Schmidt. These things are ultimately a consensus at the 
national level. And we are well below the numbers that got us 
to where we are now using any set of metrics. So what happened 
with Sputnik was the national challenge, which was seen as a 
national security challenge, boosted that. So we face something 
which is analogous but different, the challenge of a globally 
focused competitor in China. And if that's the necessary 
reasoning to get us back onto a 2 percent number, I'm 
supportive of it.
    Mr. Beyer. My friend Mr. Casten talked very well about the 
impact of not having a sensible immigration policy on the stay 
rates and the number of people applying. For years, politicians 
from both parties have talked about the STAPLE Act, that when 
you get, you know, a higher degree, we staple the green card to 
it. It never seems to go anywhere.
    Maybe, Dr. Souvaine, do you have any insight on why we 
don't make progress on this?
    Dr. Souvaine. I don't know, but I certainly would like to. 
I think that we have extremely talented people who come and 
complete degrees here and want to stay, and it would be great 
to make the pathways smoother for them to do so and to 
contribute to our society.
    Mr. Beyer. Great. Dr. Schmidt?
    Dr. Schmidt. So I've spent more than 2 decades in Congress 
talking about this particular issue, and what my friends on 
both sides say is that this is an important issue but it gets 
caught up in other and broader political issues. So I would 
encourage you all to think about these are a relatively small 
number of very specialized skills. They're tied to national 
security and the strength of our Nation. Anything that we can 
do for the purposes of this issue to address it as it's in our 
interest for national security, it causes America to grow fast, 
to create companies, and so forth I think would be helpful.
    Mr. Beyer. My friend Dr. Foster talked about how if China 
had the same patent protections, Cisco would own Huawei. And 
yet, Dr. Schmidt, you talked about the dilemma, the absolute 
necessity for us to develop our own 5G competitor. I'm sure the 
private-sector folks, the Verizons, et cetera, are doing that 
right now, but how best do we as a Federal Government stimulate 
and make plausible a global competitor to Huawei?
    Dr. Schmidt. The reason this is so important is that in 3G 
the Europeans led. And through American ingenuity, we became 
the leaders through our telco leadership in 4G LTE. As a 
result, much of the infrastructure was American-made. The chips 
were American-made. The software was American-made. And we 
benefited enormously from early applications on that. So a 
whole bunch of my friends and myself feel very strongly that we 
need a national program around 5G, which enables the telcos to 
get the bandwidth that they need. There's plenty of financing 
if these things work out, and most of its related to access to 
the right bandwidth.
    Mr. Beyer. Good. Dr. Souvaine, did you have anything to 
add?
    Dr. Souvaine. I think the most recent Science and 
Engineering Indicators Report has a lot of information about 
patenting. And one of the questions I find myself asking myself 
as I look at it is the question about patenting in the U.S. and 
patenting in the other countries. And I have a feeling that 
sometimes we patent things in the U.S. and we don't patent 
things in the other countries, and that leads to some of the 
problems that we get into. And I think that a longer look at 
patenting worldwide would be a good thing for us to do at some 
point.
    Mr. Beyer. OK. Madam Chair, I yield back.
    [Audio malfunction in hearing room.]
    Mr. Weber. As Americans, we should all be proud in my 
opinion of the DOE's incredible accomplishments. But, as you 
say, China is in the process of catching up. In your opinion, 
Dr. Schmidt, what would it mean for U.S. leadership in science 
and technology should China pull ahead of our exascale efforts 
and our high-performance computing efforts in general?
    Dr. Schmidt. So high-performance computing in general, of 
which exascale computing is an example, is crucial for energy 
and also for national security, especially nuclear. Much of 
this research has enabled our nuclear leadership and our 
defense posture--and again, there's much classified work on 
this.
    China has focused on what you have called exascale 
computing for more than a decade, and there have been a number 
of times when their computers have been significantly faster 
than ours. Again, it's a race. So once you understand it's a 
race, we have to win this, and we have to continue to win it. 
If we stopped this, we would stop being able to model both the 
national security aspects of this, as well as new innovations 
in renewable energy, traditional energy, new materials. There 
are so many things that are related to the computation that the 
DOE's funding. I cannot emphasize this enough.
    Mr. Weber. Right, especially the new materials. And I'm 
glad to hear you say nuclear as well. Our bill, the Securing 
American Leadership in Science and Technology Act, would 
authorize critical investments in DOE's advanced scientific 
computing programs. It would more than double funding for the 
Department's activities in that area by the year 2029. In your 
opinion, in what ways can we facilitate collaboration with 
American industry--and you came from industry, right--to 
maximize our return on this investment? How do we do that?
    Dr. Schmidt. Well, much of that is going to happen through 
the President's initiatives to modernize the nuclear 
infrastructure, which I'm familiar with and I'm sure you are as 
well, and so I think focusing on getting that right.
    The newest strategy in manufacturing is called basically 
digital twinning. And what you do is you build a computer model 
that's a digital simulation of the physical thing you're 
building. Changing the way we build things--and I'm talking 
about at a national security level, as well as in the 
commercial sector so that we can simulate them using these 
powerful computing resources that you're describing--allows us 
to have more reliable outcomes, more predictable outcomes when 
we actually build them. This is crucial in the nuclear area 
because we can't test these things because of all sorts of 
treaties.
    Mr. Weber. Yes, thank you for that. And I recognize in 
your--I think it was discussion with Dr. Babin you all talked 
about the 5G network. I think you said something to the effect 
that we don't have a competitor and actor large enough to do 
this. Is that what you said?
    Dr. Schmidt. The primary suppliers are Ericsson, Nokia, and 
Samsung. And I would love to see an American set of startups, 
U.S. startups. There's plenty of interesting ideas that could 
come. And I think the easiest way for that to happen is to say 
to them there's going to be lots of spectrum, there's going to 
be lots of competitors. The 5G revolution is coming, and it's 
going to be led in America and not in China.
    Mr. Weber. So you're saying there's going to be lots of 
spectrum. You may or may not be aware that the FCC (Federal 
Communications Commission) has talked about auctioning off some 
bandwidth. Are you familiar with that?
    Dr. Schmidt. I am, and have spent a lot of time on this.
    Mr. Weber. The highway departments have raised an issue 
about that. What can you tell us from your perspective about 
that?
    Dr. Schmidt. So there's a technology that's been around for 
about 10 years called sharing. And as scientists we believe 
that the various objections can be addressed by sharing the 
technology where the government has priority. And this 
technology is relatively new and we think very powerful.
    Mr. Weber. So if they sell off or auction off part of the 
spectrum, does that mean less spectrum available for 
competition?
    Dr. Schmidt. Well, the government has for the last 20 years 
been auctioning spectrum as a property right. That's 
essentially selling the highway to the truck operators. It 
would be better to have the highway be shared among the truck 
operators and the car operators and so forth. And we think 
technologically sharing is the future.
    Mr. Weber. OK. Thank you for that. Madam Chair, I yield 
back.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you to the Chair and Ranking Member, 
and thank you to the witnesses for your expertise. I'm glad to 
see so many people here today interested in this topic.
    I know the title of this hearing is ``Losing Ground: U.S. 
Competitiveness in Critical Technologies.'' I want to start on 
a positive note. We do have some of the best scientists and 
researchers, programmers, engineers in the world. We've seen 
tremendous progress in the development and deployment of high-
performance computing.
    I want to follow up on Mr. Weber's discussion. In northwest 
Oregon, where I'm honored to represent Intel, recently unveiled 
its Horse Ridge chip processor to accelerate the testing and 
potential of quantum computing. These kinds of technological 
advancements can be used for energy exploration, predicting 
climate and weather, predictive and preventive medicine, 
emergency response, and more.
    Last Congress, we passed the National Quantum Initiative 
Act to strengthen research and development into quantum 
computing and maintain U.S. leadership. The bill established a 
National Quantum Initiative Advisory Committee to advise the 
work on this Committee. These investments are needed to meet 
increasing demands and emerging technological changes, but as 
the witnesses demonstrated in their testimony today, we still 
have more work to do, especially to keep pace with our 
international competitors.
    Dr. Schmidt, in your testimony you noted that China has 
almost twice as many supercomputers as the United States. You 
suggested there is need to recalibrate areas of competition and 
cooperation. So what Federal policies would be needed? But also 
are there additional policy provisions that this Committee 
should consider now that the National Quantum Initiative Act 
has been passed and enacted?
    Dr. Schmidt. So, first place, the National Quantum 
Initiative is a fantastic piece of work on your part and is 
very, very helpful. It's going to need more. It's going to need 
more money, more focus, and so forth as it develops, but these 
things develop at a certain level. I think in general I would 
simply refer to the testimony of all three of us, that as a 
policy level it's more resources, more flexibility, more focus 
on the basic research side, consistent with national security, 
understanding that urgency is important. I think my personal 
view is that the formula works really well, and I just want it 
to happen faster. And as the students come out and the faculty 
members come out and the ideas come out, the brilliance of the 
American innovation model in terms of creating companies will 
be competitive.
    And if I can just hammer on the Chinese thing, the Chinese 
have a system called 9-9-6. They work from 9 in the morning to 
9 at night 6 days a week, right? That's what we're dealing 
with. We need to be on that footing.
    Ms. Bonamici. Appreciate that. Dr. Souvaine, your testimony 
highlighted the need for a Federal strategy for basic research 
investments that considers national needs and competitive 
opportunities and lays the groundwork for future discoveries. 
So the Committee is also well aware that Federal support for 
science research and development has remained relatively flat 
since 2000. So what level of Federal investment would be needed 
in our research facilities and infrastructure? And beyond 
increasing Federal investments, what should our Federal 
strategy on basic research include?
    Dr. Souvaine. It's tricky saying what an exact level would 
be. And certainly one of the Congresspeople cited the range 
that we've gone to from back in the 1960s between 1.6 and 1.9 
percent of the GDP was being spent on research and development 
and now it's more like .6 or .7 in terms of the Federal R&D 
spending. The NSB does not have a position on a specific dollar 
amount for R&D spending. What we can say is we can also look 
and say that the total R&D spending in the country is at an 
historic high of 2.8 percent because the business sector has 
stepped up and is being investing a lot more in R&D. At the 
same time we need to realize that when the business sector does 
that, there's a different kind of R&D in general that's being 
supported than what the Federal Government can do.
    Ms. Bonamici. Right. And I just want to call out what seems 
to be a bipartisan agreement that we need more funding, which 
is helpful. I want to try to squeeze in one more question here 
or comment. I want to align myself with the comments of my 
colleagues who talked about the importance of immigration 
reform. And I know that looking at the workforce in northwest 
Oregon. But I also want to talk about the importance of growing 
our own talent here.
    And, Dr. Schmidt, you talked about talent development, 
including K-12.
    Dr. Abdallah, you had that wonderful Martin Luther King Jr. 
quote about the purpose of education, to teach one to think 
intensively and to think critically. That's really important.
    Dr. Souvaine, you had a comment as well about creativity, 
problem-solving.
    I serve on the Education and Labor Committee, and I know 
and have worked for and advocated for well-rounded education, 
K-12. Dr. Abdallah, you said the civics and humanities, I'm the 
Founder and Co-Chair of the STEAM Caucus to integrate the arts. 
Arts education helps boost creativity. It helps people develop 
innovative, creative problem-solving minds. And we found that 
students who participate in the arts are more likely to 
participate in things like math and science fairs, for example.
    So that's just my call out as we talk about these issues 
and developing our own talent here, the arts are not a frill. 
They actually help people to learn--the brain research is to 
learn creatively and critically. And other countries are 
beginning to be ahead of us in that. I just wanted to make that 
point.
    I'm out of time, but we can follow up at another time. 
Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair and Ranking Member 
Lucas, for holding this very important hearing. Thank you to 
our panel today.
    Dr. Schmidt, as a GSB grad, it's nice to see you here. I 
didn't have the pleasure of having you in class, but very good 
to see you here.
    I want to start on the talent side. So I've run a startup 
before in Silicon Valley trying to find talent, and the talent 
shortage and competing with an Alphabet as a little itty-bitty 
startup and trying to compete with all that can be offered is 
very challenging. And it shows you just the scope of the 
problem. And so I want to echo a lot of the comments around 
visa reform in particular.
    I think there is kind of two ways to look at it. There's 
the homegrown talent piece, which we all agree we need to 
invest even more dollars in STEM. There seems to be bipartisan 
support for that, so chop chop, let's go.
    And then the second piece, which I just think is insane, 
which is we train people, we bring them in, we give them access 
to our research universities, we spend all kinds of money 
training them, and then we throw them out of the country, which 
I just think is nuts. No business would survive that way if 
that's how they operated. I don't know why we think that's a 
good practice here. But it's not.
    And so I want to start with Dr. Schmidt with this question. 
Put your business hat back on for a second. When you're dealing 
with these shortages, what decisions would you make as a 
company with respect to where to locate talent and hires given 
the tightness of the labor market here?
    Dr. Schmidt. So the good news is that the system that we're 
talking about in the United States is responding to what's 
going on. Computer science has become the number one major in 
most of the leading undergraduate universities, which is a 
shock to me because when I went to college it didn't exist. The 
graduate programs around AI have thousands of applications. 
These are within the universities for 50 slots or 100 slots. So 
we know that the engine is producing the labor, right, and 
that's a great American story.
    Mr. Gonzalez. Right.
    Dr. Schmidt. Furthermore, there's plenty of money for AI-
based startups to hire these people even at inflated salaries. 
So I think the system is gearing up for success.
    Mr. Gonzalez. Great. Great to hear. And then staying with 
you, you talked about how the AI machine learning race is a 
global one, totally agree. I've been of the perspective for a 
while we need a multidisciplinary approach and standard-setting 
as we deal with some interesting ethical dilemmas and tech 
dilemmas and things like that. Structurally, how would you go 
about solving sort of the standard-setting challenge to make 
sure that, as these technologies develop in China, for example, 
is playing by a set of rules that are informed by sort of 
western liberal democracies if you will?
    Dr. Schmidt. I doubt China is going to want to follow our 
rules about surveillance----
    Mr. Gonzalez. I sincerely doubt it.
    Dr. Schmidt [continuing]. And privacy and so forth. There 
are probably areas where we can collaborate in standards. The 
most obvious one is AI safety. Let's imagine that an AI system 
begins to do something that is not expected. That's not in 
anyone's interest. And so having a discussion about that, 
especially in a military context, is probably very important.
    Mr. Gonzalez. Yes, so that was actually going to be my next 
question. So don't comment specifically on this project, but 
the Project Maven, which at one point Google was involved in 
and had some controversy inside Google. Palantir may or may not 
be doing it, if you listen to their CEO's comments.
    Talk about on the national security front how important it 
is to lead on AI machine learning with respect to kinetic 
warfare because there's clearly going to be a blending of those 
technologies.
    Dr. Schmidt. So I'll tell you what I've told the Department 
of Defense. AI today started as largely a vision revolution. 
And computers today have better vision than humans. They see 
deeper, they see more accurately. They don't make those 
mistakes. So most of the initial use of AI is going to be in 
vision-related. Which is why in the commercial sector the 
biggest impact will be in health care and will revolutionize 
health care, which is an amazing story. In the military, much 
of the military in peacetime is spending its time watching 
things, intelligence, and so forth and so on. And you have 
expertly trained soldiers, airmen, and so forth who are sitting 
there watching screens all day bored as they could possibly be. 
We can fix that.
    Mr. Gonzalez. Yes. And, you know, I guess one thing I want 
to encourage the body on is if we stop, right, if we just say, 
hey, we are not going to be the Project Mavens of the world, 
surely China will. And if we see the ground on that type of 
technology, I think we're putting our national security at 
risk. And I think that's something we all agree we shouldn't be 
doing. So with that I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Madam Chair. Thank you to our 
panelists. Dr. Schmidt, I don't know if you remember, a number 
of years ago you came and spoke to some of us in the Library of 
Congress. And your topic was similar to today's, just generally 
how do we maintain such an effective both educational and 
commercial system.
    And so over the last 10, 12 years--and you've used the 
racing and the running metaphor, I mean, have we been losing 
ground or falling behind in the race faster and faster or how 
would you describe it? Because when we talk about a race, 
there's usually a finish line, OK, but this one, we keep 
running, Japanese come in or the Russians come in, the Chinese 
are drafting us and circling around us. In this race just 
listening to the testimony, it's talent, it's resources, it's 
incentives, kind of what you've been talking about. In losing 
ground, are we losing it faster and faster? And in the talent, 
resources, incentives kind of categories, what best can we do 
to get back and pass these guys back up?
    Dr. Schmidt. So if you look at the last 50 years, America 
has faced many challenges that have had a technological basis. 
And we've overcome them in this formula that you described. And 
I think we should be incredibly proud of that. It's a strength 
of our country that, you know, it got me to where I am. It got 
all of us to where we are.
    So the question now is you face a new competitor in the 
form of a large competitor operating in a different way, right? 
It's moving quickly and has publicly stated their objectives. 
Well, how does America face that? We don't cower. We don't sit 
there and say, oh, that's OK. We get our act together and we 
focus, we create a sense of urgency, and we figure out how to 
solve problems. Let's solve the problems of getting foreign 
students in here that we need. Let's solve the problems around 
5G. Let's solve the problems around getting the Federal 
Government to have the technology people that they need. They 
need these people. The military needs these people. Let's have 
them work together. There's all sorts of good technological 
solutions that we can invent together using this.
    Mr. Perlmutter. Thank you. Dr. Abdallah, any comments?
    Dr. Abdallah. I agree completely. I want to add something 
about solving the talent problem, for example. So at Georgia 
Tech about maybe 7, 8 years ago we were asked to see if we can 
deliver a quality master's degree in computing at a scale. And 
initially the conventional wisdom was you cannot do that. 
Today, I'm proud to say that we actually have 10,000 students 
who are getting a degree from Georgia Tech and a master's in 
computing for $7,000 or less, a lot less.
    So there are solutions. There are creative solutions. This, 
by the way, did not come from within Georgia Tech. It came from 
someone outside of Georgia Tech who came and shopped around. 
But today we're able to serve or educate about 8 to 9 percent 
of master's students. So there are these ideas that are 
emerging from different places, and I think, you know, my hope 
is that we can connect the ideas together, connect the 
resources together and facilitate both the flow of policy 
funding and resources because some of these solutions may be 
solved better at a small company, some of these problems at a 
small company versus a large company, at a national lab or 
across the world with one of our allies in Europe or elsewhere.
    Mr. Perlmutter. Thank you. Dr. Souvaine?
    Dr. Souvaine. Actually, I wanted to mention a program at 
Georgia Tech. At a younger age where there's a middle school 
program, which is doing a wonderful job at exciting middle 
schoolers to go into STEM. And, again, if that could be scaled 
also--I want to see us be able to more quickly share best 
practices and have them infect the rest of the country. View it 
like a virus.
    There was a wonderful conversation that Dr. Karen 
Marrongelle, who's the Director of EHR at NSF, had with the 
Board in November where she talked about best practices about 
programs that they could prove at NSF with their educational 
research work. If 4-year-olds to 6-year-olds do this, 5 or 6 
years later they're still excited about math and science. But 
at the end of the project it's proven to work and it sits on a 
shelf. How do we generalize, how do we disseminate?
    Mr. Perlmutter. Thank you. I was going to talk about Libra 
and Colibra and creating a digital currency by a dominant 
player in this technology sphere that's taken it all offshore, 
and I worry about surveillance and I worry about knowing 
everything. But, Dr. Schmidt, I'll just leave that alone.
    Mr. Foster [presiding]. Thank you. The gentleman from 
California, Mr. McNerney, is recognized for 5 minutes.
    Mr. McNerney. Well, I thank the Chair. I thank the 
panelists. This is really informative this morning.
    Mr. Schmidt, my district includes Stockton, California, and 
I'm really proud of Stockton because it's the first city to 
launch an AI strategy. But it has this history of economic 
hardship. It's working hard to revitalize and turn that around. 
U.S. News & World Report recently reported that Stockton is the 
most racially diverse city in the country. And I'm very excited 
about what's going on out there. But I want to talk a little 
bit about what the government--the Federal Government should be 
doing.
    But I want to point out and make a plug for my AI in 
Government Act, which will create a center of excellence within 
the GSA (General Services Administration) to provide resources 
to the different agencies.
    Mr. Schmidt, what steps should the government be taking in 
your opinion to help address the risks of bias in artificial 
intelligence systems?
    Dr. Schmidt. So there's a great deal of concern about AI 
bias in the community. And the way to understand the problem is 
that AI today is largely trained from data that's in the real 
world, so whether it's from language or processes or loan 
applications or whatever, it's trained from what it has seen. 
And we know that these systems have biases in them. We're not 
debating that. So the research that's underway is how do we 
correct the model when it comes out to limit any unintended 
bias? This is an issue that pretty much all of the technology 
companies have identified as a key part of their ethics 
principles. It's not solved yet.
    Mr. McNerney. Is there a role for the Federal Government to 
solve it?
    Dr. Schmidt. This is a great opportunity to plug for more 
research funding in these areas. It's an area of very active 
research in the universities.
    Mr. McNerney. Well, thank you. The AI and cyber threats is 
also an interesting sort of area. Is that something you're 
concerned about and how AI can be used to help us defuse cyber 
threats?
    Dr. Schmidt. Well, AI will definitely be used to watch--
remember, I discussed that AI is a monitoring system that 
today, a vision. It'll be used for dynamic monitoring. You 
simply can't monitor everything. And it's reasonable to expect 
at a national security level that you'll be able to look at all 
of the things going on, and the AI will say something's up, I 
can't tell you why, but look over here. It can't tell you why 
because it doesn't understand, but it said there's an unusual 
pattern here or there, and that's the state-of-the-art.
    Mr. McNerney. Is that deployable in home computers?
    Dr. Schmidt. You would do this in classified settings I 
think.
    The other thing that is of concern is that there are people 
who think that the models themselves can be corrupted, in other 
words, an attacker can take the model and change it after 
you've trained it in such a way that it doesn't do what you 
wanted. And that general issue around AI safety is also 
important.
    Mr. McNerney. Well, how do you think the Federal Government 
can help universities produce AI talent?
    Dr. Schmidt. Again, I think the universities are fantastic 
in what they do. They need more funding, more infrastructure 
along the lines of what everyone has said.
    Mr. McNerney. Thank you. Dr. Souvaine, I really appreciate 
your comment that it can no longer be socially acceptable to be 
bad at math, but how do we change that? I mean, how do we 
attack that? Or anyone on the panel that has an answer to that.
    Dr. Souvaine. It's really complicated because education is 
done all over the country in local school districts--I mean, 
there's so many levels--there's local government, there's State 
government, there's the Federal Government. There's the 
schools, there's the training of teachers. It's a huge network 
of educational systems. And yet I was so excited by what I 
referred to, Karen Marrongelle's presentation at the November 
Board meeting where they could present actual programs that 
have done longitudinal studies and shown that if 4-year-olds to 
6-year-old do X, and then when they're older they're doing Y, 
that they are progressing in their understanding.
    We need to expand our whole understanding. You know, I 
think that when I go someplace and someone says I was great at 
math till 7th grade and then I hit the ceiling, there is a 
sense that there's a ceiling. And yet people learn this way or 
that way or the other way. They learn all sorts of different 
ways, and we have to view it as our charge to empower every 
citizen to have what they need, and every citizen needs to read 
and write, and every citizen needs to be comfortable thinking 
mathematically or computationally. And we can do that.
    Anecdotally, I had a degree in both math and English, and I 
taught 10th grade math and 10th grade English at the same time 
in a high school. And I found that someone who's really good at 
English I could use that skill to help them be better at math. 
And if they were really good at math, I could help them be 
better at English. That's what the convergence is about, the 
convergent thinking is about, that the mixture of disciplines 
we can access the creativity of how we all think, and we can 
all contribute to the thinking that needs to be happening in 
the generations that go forward.
    Mr. McNerney. For just a second here, in the Bay Area and a 
little beyond it's kind of cool to be a nerd and a geek, but 
how do we get that out to the rest of the country? I mean, is 
Hollywood going to be an important part of this or social 
media? And if the Chairman will indulge me, I'll let Mr. 
Schmidt take a shot at this.
    Dr. Schmidt. I think Big Bang Theory has certainly helped 
and, you know, television and media matter a lot. As you know, 
a lot of people are now using the Khan Academy software, which 
has a very large mathematical component, to supplement their 
learning. I think building a movement around parents to say 
that the math education my kid is getting is not good enough; 
I'm going to supplement it with all sorts of free services 
would be helpful.
    Mr. McNerney. Thank you. I yield.
    Mr. Foster. Thank you. And Members are advised if they're 
interested in another brief round of questions that we'll make 
a shot at that.
    And Representative Lamb from Pennsylvania is now recognized 
for 5 minutes.
    Mr. Lamb. Thank you, Mr. Chairman.
    Dr. Souvaine, just to kind of follow a little bit further 
down that same trajectory, I think the point about middle 
school and high school is extremely important. Also very 
challenging for us from the Federal level. And there are those 
that are more than me about it. But, you know, we've seen a 
little bit of a flatness in educational attainment and testing 
in those levels over time.
    To me in the short term what's a little bit newer or maybe 
more promising is the transition to convincing young people 
that there are other post-high school options besides an 
immediate 4-year degree and trying to get more people to go 
down the path of job-training skills, community colleges. And 
so just having listened to and seen your testimony, what 
specific institutions do you think are best to steer people 
toward--you mentioned community colleges specifically. Would 
you say they are the best? Have you seen apprenticeship 
programs or other models just kind of quickly? What are the 
actual places where it's being done well?
    Dr. Souvaine. We published a report last year on the 
skilled technical workforce, and we did that after a series of 
listening sessions. And so there's a number of places that we 
visited that had NSF ATE (Advanced Technological Education) 
funding which showed that they were partnerships between the 
community college, the university, and the industry and the 
local area. And together they were creating pipelines where 
students were so excited. They were doing terrific work and 
going directly into jobs that were paying $80K without a----
    Mr. Lamb. Yes, that confirms what we've seen out my way as 
well. But it seems like the community college is often the best 
suited to kind of lead that partnership as the deliverer of the 
training with those partners.
    Dr. Abdallah, I thought your example from Georgia of the 
$7,000 or $9,000 or whatever it was master's degree. Can a 
major university like yours also offer something like that 
short of a bachelor degree or is it better done at a kind of 
smaller institution that you support?
    Dr. Abdallah. Actually, we do collaborate and cooperate 
with community colleges and high schools and others to do that. 
In fact, in Georgia right now there is a bill that passed last 
year and funded to try to put computer science education 
earlier and earlier, which I think is also important is to 
start injecting computing thinking or computer science earlier.
    Mr. Lamb. Great. Thank you. Last question, Dr. Schmidt, I 
think you've addressed pieces of this, and I apologize if I 
missed some of it. But often when we talk about the comparison 
with China, we talk about kind of overall dollar amounts. But 
my sense is from what you and others have said is there's also 
a qualitative difference about how we do the R&D here versus 
there and the ecosystem we have and how we spend the money that 
we invest. Is there kind of a short way of explaining that, 
what's different about just the way we do it here in the 
culture we set up versus how it's being done over there?
    Dr. Schmidt. Well, you know, 10 years ago people were of 
the opinion that China would not get to this point. There was a 
sort of American--if I may say arrogance that somehow we're 
better than them because of our model. And it looks to me like 
their model is different. So theirs is heavily government-
funded around the programs that I identified in my testimony, 
which include AI, 5G, finance, and so forth, all areas of 
critical infrastructure for America as well. But they do it 
pretty much top-down. It's much more structured, and there's 
much less, shall we say, individual freedom in pursuit of 
activities. However, the product is very good and very much a 
number two today, on its way to being number one in some areas.
    The American model can be understood as much more messy, 
right? It's much more--many different--it's a partnership and 
so forth. But as Dr. Souvaine said, the model that has worked 
well for America has been these local collaborations where the 
government and the local people are solving some problem, in 
this case, STEM education. That flexibility is more fundamental 
than it appears because it allows for strategic flexibility. It 
allows for the businesses to be more flexible. It allows for 
everything to move quicker.
    The Chinese advantage is that they have access to very 
inexpensive capital from the government, and they also have a 
culture of Chinese entrepreneurialism and wealth creation 
that's historic. And so that has driven this enormous internet 
phenomena inside of China, which is an issue in terms of their 
own internal politics but is nevertheless impressive.
    Mr. Lamb. Thank you very much. Mr. Chair, I yield back.
    Mr. Foster. Thank you. And I will now recognize myself for 
5 minutes for I believe the last set of questions here.
    You know, we have been struggling with the immigration 
problem for, you know, more than a decade. And there was an 
interesting thing that happened last year where the U.S. House 
passed with a large bipartisan margin something called the Ag 
JOBS Act, which was essentially comprehensive immigration 
reform for agriculture workers and their families. And so we 
had the large number of Democrats and Republicans vote for 
this, something that in previous years they would have called 
amnesty.
    And so the question that I have is whether there may be a 
pathway to comprehensive immigration reform that is sector by 
sector, that along those lines I introduced last year the Keep 
STEM Talent Act that is a rifle shot at the high skill thing. 
It simply provides permanent resident status to international 
students who've completed advanced STEM degrees at U.S. 
educational institutions and are interested in continuing 
research.
    And so I just wanted to highlight that because, you know, 
we've struggled and failed with comprehensive immigration 
reform, but I was startled to see the broad support for a 
single-sector approach in this. And I think there may be a 
possibility in the tech sector as well because of the 
bipartisan support for that.
    The other thing I'd like to bring up is of the different 
models for funding both fundamental and applied research, one 
of them is to allow the funding agency or the government to 
retain an equity stake in the startups. For example, Israel 
sort of famously does that. The Chinese do it implicitly with 
their state-owned enterprises. And universities retain an 
equity stake in things that spinoff. And I was wondering if you 
think there's a merit for us looking into that as a systematic 
way of not--of increasing the pie? You know, if we had--for 
example, the government had retained a 5 percent equity stake 
in Google, that might have made a transformative difference in 
our ability to fund R&D.
    Dr. Schmidt. While I acknowledge the point, I will point 
out that the tax revenues to the government of these companies 
so far exceeds the value of that 5 percent, so if you think 
about it, the number of jobs that are created, the economic 
infrastructure, the sort of positioning of the technology 
innovation engine--and, by the way, that includes things like 
fracking, right, in terms of its impact that it had on the 
Midwest. Over and over again the early money which is seen as a 
sort of gift can be better understood as an investment for 5 or 
10 or 15 years from now for huge wealth creation for the 
Nation, which the country does get in the form of its tax 
revenues.
    Mr. Foster. Dr. Souvaine?
    Dr. Souvaine. My former capacity as VPR where our tech 
transfer was one of the portfolios I would say that there was 
not a lot of return on the patents that we had. But where there 
was the university's share was used to reinvest in basic 
research in a way that didn't require the administrative 
burdens of massive numbers of grant proposals for 3 years, et 
cetera. And so that in a sense it is serving the Federal 
Government as it currently is and having the share in the 
university when it occurs because it is re-ceding something 
that the government cares about. It cares about the results of 
basic research.
    Mr. Foster. Yes. And the patent royalty model for 
universities is long-standing. Did you have any comments on 
having a look at, for example, the Israeli model, which is sort 
of an intermediate.
    Dr. Abdallah. Well, so most universities do not keep equity 
in the usual sense. I mean, there are different models, but 
usually the universities in this space would encourage 
licensing or trying to help from that point of view.
    I do want to say that the Federal dollar does multiple 
roles. It has multiple roles. It pays for the research. It pays 
for the education of the students who are also going to go out 
and create more research and get jobs. And it also potentially 
spins off these companies. So the investment is--has three 
different sources eventually of trying to recover or to try to 
pay back.
    As far as the universities are concerned, this is a role 
that they assumed, you know, gladly assumed to try to 
commercialize and try to get the research out, but it is not 
something that pays off in the short term. You know, at a place 
like Stanford, for example, I think they have three companies 
that gave back more than $100 million so you think about 
Stanford as generating all of these companies. I think overall 
out of the thousands and thousands and thousands of companies, 
you know, the very few will get about $1 million. So it's a 
high-risk place, and I think it's important to keep the model 
that we have right now.
    I'm not sure--I haven't studied the Israeli model or 
getting equity into that, you know. I'd be happy to have that 
at Georgia Tech, but I don't----
    Mr. Foster. Any comments on that for the record. I guess 
we're out of time here. But, you know, before drawing the 
hearing to a close, I want to thank the witnesses, though I 
have to say the most exciting thing that I heard was a 
statement from my colleague, the Ranking Member Mr. Lucas, that 
he was strongly in favor of doubling the Federal R&D budget. 
And so that's got to be the most exciting thing that we've seen 
here.
    And the record will remain open for 2 weeks for additional 
statements by the Members and for any additional questions the 
Committee may ask of the witnesses.
    The witnesses are now excused, and the hearing is now 
adjourned.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        

                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
